<html>
<title> - CHALLENGES FACING BUREAU OF INDIAN EDUCATION SCHOOLS IN IMPROVING STUDENT ACHIEVEMENT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                      CHALLENGES FACING BUREAU OF
                      INDIAN EDUCATION SCHOOLS IN
                     IMPROVING STUDENT ACHIEVEMENT

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, SEPTEMBER 9, 2008

                               __________

                           Serial No. 110-108

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                     U.S. GOVERNMENT PRINTING OFFICE
44-214 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            [Vacancy]
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                   DALE E. KILDEE, Michigan, Chairman

Robert C. ``Bobby'' Scott, Virginia  Michael N. Castle, Delaware,
Dennis J. Kucinich, Ohio               Ranking Minority Member
Susan A. Davis, California           Peter Hoekstra, Michigan
Danny K. Davis, Illinois             Mark E. Souder, Indiana
Raul M. Grijalva, Arizona            Vernon J. Ehlers, Michigan
Donald M. Payne, New Jersey          Judy Biggert, Illinois
Rush D. Holt, New Jersey             Luis G. Fortuno, Puerto Rico
Linda T. Sanchez, California         Rob Bishop, Utah
John P. Sarbanes, Maryland           Todd Russell Platts, Pennsylvania
Joe Sestak, Pennsylvania             Ric Keller, Florida
David Loebsack, Iowa                 Joe Wilson, South Carolina
Mazie Hirono, Hawaii                 Charles W. Boustany, Jr., 
Phil Hare, Illinois                      Louisiana
Lynn C. Woolsey, California          John R. ``Randy'' Kuhl, Jr., New 
Ruben Hinojosa, Texas                    York
                                     [Vacancy]


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 9, 2008................................     1

Statement of Members:
    Castle, Hon. Michael N., Senior Republican Member, 
      Subcommittee on Early Childhood, Elementary and Secondary 
      Education..................................................     3
        Prepared statement of....................................     4
    Kildee, Hon. Dale E., Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Ashby, Cornelia, Director, Education, Workforce, and Income 
      Security Issues, U.S. Government Accountability Office.....     7
        Prepared statement of....................................     9
    Dudro, Anne, Chief of Staff, Office of Elementary and 
      Secondary Education, U.S. Department of Education..........    22
        Prepared statement of....................................    24
    Gilbert, Dr. Willard Sakiestewa, president, National Indian 
      Education Association......................................     9
        Prepared statement of....................................    11
        Additional material submitted for the record.............    11
    Hamilton, Theodore, executive director, Oceti Sakowin 
      Education Consortium.......................................    27
        Prepared statement of....................................    30
    Holder, Stanley, Chief, Division of Performance and 
      Accountability, Bureau of Indian Education, Department of 
      the Interior...............................................    17
        Prepared statement of....................................    19


                      CHALLENGES FACING BUREAU OF
                      INDIAN EDUCATION SCHOOLS IN
                     IMPROVING STUDENT ACHIEVEMENT

                              ----------                              


                       Tuesday, September 9, 2008

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2175, Rayburn House Office Building, Hon. Dale Kildee 
[chairman of the subcommittee] presiding.
    Present: Representatives Kildee, Scott, Kucinich, Grijalva, 
Payne, Holt, Woolsey, Castle, and Ehlers.
    Also present: Representative Herseth Sandlin.
    Staff present: Tylease Alli, Hearing Clerk; Catherine 
Brown, Education Policy Advisor; Denise Forte, Director of 
Education Policy; David Hartzler, Systems Administrator; Lloyd 
Horwich, Policy Advisor, Subcommittee on Early Childhood, 
Elementary and Secretary Education; Fred Jones, Staff 
Assistant, Education; Jessica Kahanek, Press Assistant; Joe 
Novotny, Chief Clerk; Margaret Young, Staff Assistant, 
Education; Stephanie Arras, Minority Legislative Assistant; 
Robert Borden, Minority General Counsel; Kirsten Duncan, 
Minority Professional Staff Member; Chad Miller, Minority 
Professional Staff; Susan Ross, Minority Director of Education 
and Human Services Policy; Linda Stevens, Minority Chief Clerk/
Assistant to the General Counsel; and Sally Stroup, Minority 
Staff Director.
    Chairman Kildee [presiding]. A quorum being present, the 
hearing of the subcommittee will come to order. Pursuant to 
Committee Rule 12, any member may submit an opening statement 
in writing which will be part of the permanent record. And I 
recognize myself for an opening statement.
    I am pleased to welcome the public and our witnesses to 
this hearing of the Subcommittee on Early Childhood Elementary 
and Secondary Education, ``Challenges Facing Bureau of Indian 
Education Schools In Improving Student Achievement.''
    Last year, we held a hearing at the Gila River Indian 
Community in the district of our fellow subcommittee member, 
Mr. Grijalva. That hearing was on how the No Child Left Behind 
Act has impacted Indian education generally.
    Today's hearing is on issues facing Bureau of Indian 
Education-funded schools specifically.
    Nearly 50,000 students, 10 percent of all Indian students, 
attend one of the 184 BIE schools. Of the 184, BIE operates 61 
directly, and contractors operate the other 123.
    It was in the early days of my tenure here in Congress that 
we began to encourage the contract schools. Al Quie, who used 
to sit right here, Al Quie, who later on became governor of 
Minnesota, played a very important role in that. And I think Al 
Quie and the governor sitting next to me right now have both 
illustrated through those 32 years that Indian education has 
been a real genuine bipartisan concern.
    I have had an abiding interest in Indian education since my 
election to the Michigan legislature in 1964. In Michigan, I 
wrote the Michigan Indian Tuition Waiver Act to bring the state 
into compliance with its treaty obligations.
    The Act provides for a tuition-free education for Michigan 
Indians at Michigan public colleges. Jackie Vaughn, who has 
gone on to his eternal reward, and I wrote that bill and the 
governor signed the bill. A Democratic Legislature passed it, 
signed by a Republican governor. Again, illustrating that we 
have a bipartisan concern with our obligations to America's 
first citizens.
    Today, I am able to express my interest not only through my 
chairmanship of this subcommittee but also as the founder and 
Democratic chairman of the House Native American Caucus and as 
a member of the Natural Resources Committee.
    I often say that land and language are the two anchors for 
protecting tribal sovereignty. A third anchor for protecting 
tribe sovereignty is education.
    History has presented us with unique challenges in 
providing every Indian child with the education he or she needs 
to better their and their family's station in life. But in one 
respect, the challenge facing tribes is the same challenge 
faced anywhere in the United States--our success to the 21st 
century economy is directly tied to our ability to produce a 
high quality labor force.
    And that ability is, of course, directly tied to our 
ability to meet the challenge of providing every child, 
including every Indian child, with a world-class education. And 
that is why we are here today.
    We have a distinguished panel of witnesses who will provide 
us with insight on the unique challenges facing BIE schools and 
improving student education.
    Because, while the need for education may be the same 
everywhere, the way to educate children is not. Our witnesses 
will discuss a recent Government Accountability Office report 
on how to improve BIE's assistance to tribes to help them 
implement academic accountability systems under NCLB to take 
into account Indian culture and languages.
    The report describes a number of shortcomings in that 
assistance.
    Moving forward, we must clarify the roles and 
responsibilities of the many agencies involved--the Departments 
of the Interior and Education, States, and tribes.
    And, in particular, we must ensure that the tribes, which 
are sovereign entities, are full partners in the process. The 
law contemplates that the federal government will work with the 
tribes, not dictate to the tribes and that the process will 
work out a system that is relevant to the unique situation of 
the tribes including their culture and language.
    Some of our witnesses also will discuss the need to 
increase federal support for Indian education, and that also is 
critical.
    So I look forward to the testimony, and it is my pleasure 
to yield to my good friend, the governor of Delaware, Mr. 
Castle.
    [The statement of Mr. Kildee follows:]

 Prepared Statement of Hon. Dale E. Kildee, Chairman, Subcommittee on 
          Early Childhood, Elementary, and Secondary Education

    I'm pleased to welcome the public and our witnesses to this hearing 
of the subcommittee on early childhood, elementary and secondary 
education--``Challenges Facing Bureau of Indian Education Schools in 
improving Student Achievement.''
    Last year, we held a hearing at the Gila River Indian Community--in 
the district of our fellow subcommittee member, Mr. Grijalva. That 
hearing was on how the No Child Left Behind Act has impacted Indian 
education, generally.
    Today's hearing is on issues facing Bureau of Indian Education-
funded schools specifically. Nearly 50,000 students--10 percent of all 
Indian students--attend one of the 184 BIE schools. Of the 184, BIE 
operates 61 directly and contracts with tribes to operate the other 
123. I have had an abiding interest in Indian education since my 
election to the Michigan Legislature in 1964. In Michigan, I wrote the 
Michigan Indian Tuition Waiver Act--to bring the state into compliance 
with its treaty obligations. The act provides for a tuition-free 
education for qualified Michigan Indians at Michigan's public colleges. 
Today, I am able to express that interest not only though my 
chairmanship of this subcommittee, but also as the founder and 
Democratic Chairman of the House Native American Caucus, and as a 
member of the Natural Resources Committee. I often say that land and 
language are the two anchors for protecting tribal sovereignty. A third 
anchor for protecting tribal sovereignty is education.
    History has presented us with unique challenges in providing every 
Indian child with the education he or she needs to better their and 
their family's station in life. But, in one respect, the challenge 
facing tribes is the same challenge faced anywhere in the United 
States.
    Our success in the 21st century economy is directly tied to our 
ability to produce a high quality labor force. And that ability is, of 
course, directly tied to our ability to meet the challenge of providing 
every child--including every Indian child--with a world-class 
education.
    And that is why we are here today.
    We have a distinguished panel of witnesses who will provide us with 
insight on the unique challenges facing BIE schools in improving 
student achievement. Because, while the need for education may be the 
same everywhere, the way to educate children is not. Our witnesses will 
discuss a recent government accountability office report on how to 
improve BIE's assistance to tribes to help them implement academic 
accountability systems under NCLB that take into account Indian culture 
and languages.
    The report identifies a number of shortcomings in that assistance. 
Moving forward, we must clarify the roles and responsibilities of the 
many agencies involved--the Departments of the Interior and Education, 
states, and tribes.
    And, in particular, we must ensure that the tribes--which are 
sovereign entities--are full partners in the process.
    The law contemplates that the federal government will work with the 
tribes, not dictate to the tribes. Some of our witnesses also will 
discuss the need to increase federal support for Indian education, and 
that also is critical.
    Thank you.
                                 ______
                                 
    Mr. Castle. Well, thank you, Mr. Chairman, for this 
hearing. Thank you for your interest in education and, 
particularly, Indian education. You are deeply steeped in this, 
and for that, we are all very appreciative.
    And we thank our witnesses for being here for making 
themselves available to us today. I look forward to your 
testimony, as a matter of fact.
    As most of you know, the federal government, through the 
U.S. Department of Interior's Bureau of Indian Education, which 
is the BIE we are referring to, providing educational 
assistance to Indian children to ensure that they receive a 
high quality education comparable to their peers.
    Currently, the BIE-funded education system for Indian 
students includes 174 schools and 14 peripheral dormitories for 
students attending public schools nearby.
    The No Child Left Behind Act requires states in the BIE to 
define and determine whether schools are making adequate yearly 
progress towards meeting the goal of 100 percent academic 
proficiency.
    In June of this year, the U.S. Government Accountability 
Office, which we know as GAO, issued a report that examined how 
the BIE and Indian tribes have implemented the requirements of 
No Child Left Behind. The report, entitled ``Improving 
Interior's Assistance Would Help Some Tribal Groups Implement 
Academic Accountability Systems,'' found that BIE and almost 
all of its schools have adopted state definitions of AYP.
    The report did note, however, that the BIE has not 
completed agreements with several key states, delineating terms 
that BIE-funded schools access to the state assessment systems. 
As the BIE moves forward with the process of improving student 
academic achievement and as No Child Left Behind is considered 
for reauthorization, I believe, as many proponents of American 
education do, that we must explore options which can provide 
additional flexibility to BIE schools in helping them meet the 
law's requirements.
    Although I believe strongly that the BIE should continue to 
have the flexibility necessary to develop assessments that 
accurately measure student achievement, Congress must work to 
ensure that we and the BIE remain committed to the high 
standards and quality all students and schools should be held 
to.
    I look forward to hearing from today's witnesses about what 
is happening on the ground regarding this issue.
    Thank you. Thank you, Mr. Chairman.
    [The statement of Mr. Castle follows:]

Prepared Statement of Hon. Mike Castle, Senior Republican, Subcommittee 
        on Early Childhood, Elementary, and Secondary Education

    Good morning and thank you Chairman Kildee for holding today's 
hearing on the important topic of ``Challenges Facing Bureau of Indian 
Education Schools in Improving Student Achievement.'' I would also like 
to thank today's witnesses for sharing their time and expertise with 
the Subcommittee on this issue.
    As most of you know, the federal government, through the U.S. 
Department of Interior's Bureau of Indian Education (BIE), provides 
educational assistance to Indian children to ensure that they receive a 
high quality education comparable to their peers. Currently, the BIE-
funded education system for Indian students includes 174 schools and 14 
``peripheral dormitories'' for students attending public schools 
nearby.
    The No Child Left Behind (NCLB) Act requires states and the BIE to 
define and determine whether schools are making adequate yearly 
progress (AYP) towards meeting the goal of 100 percent academic 
proficiency.
    In June of this year, the U.S. Government Accountability Office 
(GAO) issued a report that examined how the BIE and Indian tribes have 
implemented the requirements of NCLB. The report, entitled ``Improving 
Interior's Assistance Would Help Some Tribal Groups Implement Academic 
Accountability Systems,'' found that BIE and almost all of its schools 
have adopted State definitions of AYP. The report did note, however, 
that the BIE has not completed agreements with several key states 
delineating the terms of BIE-funded schools' access to the state 
assessment systems.
    As the BIE moves forward with the process of improving student 
academic achievement, and as NCLB is considered for reauthorization, I 
believe, as many proponents of Indian education do, that we must 
explore options which can provide additional flexibility to BIE schools 
in helping them meet the law's requirements.
    Although I believe strongly that the BIE should continue to have 
the flexibility necessary to develop assessments that accurately 
measure student achievement, Congress must work to ensure we and the 
BIE remain committed to the high standards and quality all students and 
schools should be held to.
    I look forward to hearing from today's witnesses about what is 
happening on the ground regarding this issue. Thank you.
                                 ______
                                 
    Chairman Kildee. Thank you very much, Mr. Castle.
    I would now like to introduce the very distinguished panel 
of witnesses here with us this morning.
    Cornelia Ashby is director of education, workforce, and 
income security issues for the Government Accountability 
Office. Ms. Ashby joined GAO in 1973.
    In 1992, she was selected for GAO's senior executive 
candidate development program and in 1994, was appointed an 
associate director for education and employment issues.
    She began her current position in the year 2000.
    Dr. Willard Gilbert is president of the National Indian 
Education Association and a professor of education at Northern 
Arizona University.
    Dr. Gilbert is an expert on integrating native language, 
culture, and traditions into school curriculum, a critical 
issue in Indian education.
    Stan Holder is the chief of the Bureau of Indian 
Education's Division of Performance and Accountability where he 
administers all programs funded under NCLB for the Bureau.
    He has published research on instructional and behavioral 
programs that improve student achievement and behavioral 
outcomes. He also is a former vice president of the Wichita and 
affiliated tribes.
    Anne Dudro is chief of staff for the Department of 
Education's Office of Elementary and Secondary Education. Ms. 
Dudro joined the Department in 2005, and is a special assistant 
to the secretary.
    She also was appointed that year as a member of the U.S. 
Delegation to the 33rd General Conference of the United Nations 
Educational, Scientific, and Cultural Organization.
    I now ask unanimous consent to yield to Representative 
Stephanie Herseth Sandlin to introduce our next witness, Ted 
Hamilton.
    In yielding, I would like to note that it is my pleasure to 
serve with Representative Herseth Sandlin both on the Natural 
Resources Committee and the Native American Caucus. She is an 
outstanding advocate on education and Indian issues.
    I yield to her.
    Ms. Herseth Sandlin. Well, thank you very much, Chairman 
Kildee and Ranking Member Castle, for holding this very 
important hearing, for your extraordinary leadership on this 
issue, and for allowing me a chance to join you on the dais for 
the purposes of introducing a fellow South Dakotan and a leader 
in Indian education, Mr. Ted Hamilton.
    Mr. Hamilton is the executive director of the Oceti Sakowin 
Education Consortium, also referred to as OSEC. He has 22 years 
of experience working with tribal colleges, grant schools, and 
public schools across the Great Plains.
    Mr. Hamilton was one of the founders of OSEC. It started 
nearly 10 years ago. Based on the Pine Ridge Indian 
Reservation, OSEC is comprised of numerous tribal colleges and 
tribal schools and provides a range of valuable services to 
these schools.
    Through his work with schools eager to develop an 
alternative adequate yearly progress standard, Mr. Hamilton has 
become intimately familiar with the impacts of No Child Left 
Behind in Bureau of Indian Education schools.
    I know you will appreciate his insights and perspective on 
the matters before the subcommittee today.
    With 22 schools operated by the Bureau of Indian Education 
in South Dakota, the topics that will be addressed today are of 
critical importance to the native communities in my state.
    In March of 2006, Chairman George Miller and I conducted a 
series of visits to Indian country schools in southwestern 
South Dakota. After meeting with educators, administrators, 
students, and concerned community members, two themes emerged: 
the importance of considering native culture within achievement 
and accountability standards and the unique management 
challenges created by the BIE's authority over much NCLB 
implementation.
    As we all know, the federal government has a unique 
government-to-government relationship with American Indian 
tribes, and this relationship is based on the United States 
Constitution and hundreds of treaties signed by tribes and the 
U.S. Government.
    Education is one treaty-based responsibility. The GAO study 
confirms what schools in my district have reported: the federal 
government still has work to do to better uphold its trust 
responsibilities with regard to Indian education.
    When we consider that only 31 percent of BIE schools, less 
than one in three, met adequate yearly progress in 2007, it is 
clear that Congress must work to address the challenges facing 
these schools. The Department of the Interior and the 
Department of Education should continue to engage with tribes 
in a manner that respects tribal sovereignty and empowers 
tribal self-determination.
    So, again, thank you for holding this hearing, for allowing 
me to introduce Mr. Hamilton this morning. I commend his 
testimony.
    To all of you on the subcommittee, this hearing is a truly 
important step toward assessing the impact of NCLB in Indian 
country and guiding our future actions to further improve 
education of native students across the United States.
    Thank you, Mr. Chairman.
    Chairman Kildee. Thank you very much.
    And, again, welcome to all our witnesses. For those of you 
who have not testified before this subcommittee before, I will 
explain our lighting system and the 5-minute rule.
    Everyone, including members, is limited to 5 minutes for 
presentation or questioning. The green light will be 
illuminated when you begin to speak. When you see the yellow 
light, it means that you have 1 minute remaining. When you see 
the red light, it means your time has expired and you need to 
conclude your testimony.
    There is no ejection seat there, so you may finish up your 
sentence or your paragraph and conclude.
    Please be certain as you are testifying to turn on and 
speak into the microphone in front of you and turn it off when 
you are finished.
    We will now hear from our first witness, Cornelia Ashby, 
director of education, workforce, and income security issues 
with the U.S. Government Accountability Office.
    You may begin.

 STATEMENT OF CORNELIA ASHBY, DIRECTOR, EDUCATION, WORKFORCE, 
  AND INCOME SECURITY ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Ms. Ashby. Mr. Chairman and members of the subcommittee, I 
am pleased to be here today to discuss the challenges tribal 
groups and BIE schools face with respect to the measurement of 
Indian students' academic progress. My testimony is based 
largely on our June 2008 report on this topic.
    As a condition for receiving grants under NCLBA, schools, 
including BIE schools, must measure yearly progress in meeting 
academic standards in math, reading, and science. In 2005, as 
required by NCLBA, the Secretary of the Interior determined 
that to measure such progress, each BIE school would use the 
definition of adequate yearly progress of the state in which 
the school is located.
    Recognizing that students in BIE schools may have unique 
needs and special circumstances, NCLBA allows tribal groups to 
waive all or part of the secretary's definition of AYP and 
propose an alternative.
    Under BIE regulations, the definition of AYP covers the 
academic standards and assessments used in measuring academic 
progress. Although all of the 174 BIE schools have measured 
academic progress--almost all have measured academic progress 
in accordance with their state's definition of AYP.
    To establish the terms under which BIE schools access 
assessments and scoring arrangements, BIE has established 
memorandums of understanding with about half of the 23 states 
that have BIE schools.
    While the remaining states, with the exception of 
California, have allowed BIE schools access to their 
assessments, without MOUs, there is increased risk that the 
terms of access will change. California officials have not 
given the two BIE schools in the state access to the state 
assessment because they fear a breach in security. They only 
administer the assessments to public schools in California.
    However, state officials were willing to make an exception 
for BIE schools, but requested a $1 million bond in security. 
BIE and education officials are trying to work with the state 
to resolve the issue.
    Three tribal groups, the Navajo Nation, the Oceti Sakowin 
Education Consortium known as OSEC, and the Miccosukee, 
representing BIE schools in five states and about 44 percent of 
BIE students are in the early stages of developing alternative 
definitions of AYP.
    Officials from the Navajo Nation with BIE schools in three 
states have requested technical assistance for developing an 
alternative definition of AYP, citing the desire to include 
cultural components in the standards and assessments, compare 
the progress of Navajo students across states, and develop a 
Navajo-specific measure that could influence AYP determination 
regardless of the state in which the school is located.
    OSEC seeks to develop alternative standards and alternative 
assessment to improve student performance, define the 
graduation rates to include 6 years rather than 4, and replace 
the attendance component with a language and culture component.
    The Miccosukee Tribe of Florida is considering options for 
developing an alternative assessment in developing standards 
for Miccosukee culture and language to serve as the additional 
AYP indicator in lieu of attendance for their students in third 
to eighth grade.
    Other tribal groups have not pursued alternatives for 
various reasons including the desire to remain compatible with 
public schools in their state and potential challenges and 
resources required to develop alternatives.
    For example, officials representing BIE schools in 
California, Mississippi, and Washington told us that it was 
important that their schools be compatible with the local 
public schools. In addition, school and Department of Education 
officials and BIE education line officers identified several 
potential challenges the tribal groups might encounter, 
including not enough of the specialized knowledge required and 
funding and extensive time commitments that might not be 
sustainable given changes in leadership in both the tribal and 
BIE levels.
    The three tribal groups seeking alternatives reported a 
lack of federal guidance on the alternative development process 
and frustration with the pace and quality of communication with 
BIE. But they have more recently reported receiving some 
assistance from BIE and Education.
    BIE's education line officers, who are the tribal group's 
primary contact for information on developing an alternative, 
generally indicated they had not received guidance or training 
on this provision. In communicating with tribal groups 
regarding alternative AYP definitions, BIE did not consistently 
apply its processes for providing accurate and timely 
responses.
    In our June 2008 report, we made recommendations to the 
Secretary of the Interior related to BIE's ensuring access to 
state assessments, guidance and training on the process for 
seeking alternatives, and communication with tribal groups 
seeking alternative definitions for AYP by establishing 
internal time frames and processes.
    Interior agreed with our recommendations and reported 
taking actions in response to them.
    Mr. Chairman, this concludes my prepared statement. I would 
be happy to answer any questions.
    [The statement of Ms. Ashby may be accessed at the 
following Internet address:]

               http://www.gao.gov/new.items/d081125t.pdf

                                 ______
                                 
    Chairman Kildee. Thank you very much for your testimony, 
and we will look forward to questioning.
    Dr. Gilbert?

 STATEMENT OF WILLARD SAKIESTEWA GILBERT, PRESIDENT, NATIONAL 
                  INDIAN EDUCATION ASSOCIATION

    Dr. Gilbert. Thank you, Chairman Kildee for championing on 
behalf of native children. I thank you for your support, and we 
greatly appreciate it.
    My name is Dr. Willard Sakiestewa Gilbert, president of the 
National Indian Education Association. I am also a member of 
the Hopi tribe.
    Today, I would like to share NIEA's membership concerns 
regarding the disparity in academic achievement between schools 
funded and operated by BIE and other schools.
    NIEA has held 12 field hearings on reauthorization of NCLBA 
and recently conducted four of its five regional hearings on 
issues that impact native students who attend BIE-funded 
schools.
    Well over 200 witnesses have testified and have submitted 
written testimony regarding challenges our native students have 
encountered by NCLBA, school transportation, construction, 
maintenance, and facilities needs as well as JOM and tribal 
education department funding and other pressing issues.
    The following is a summary of their testimony.
    There is little collaboration between the Departments of 
Education and Interior in helping BIE students meet 
requirements of NCLB. For the past 3 years, only 30 percent of 
BIE schools made AYP goals established by the states in which 
the goals were located.
    In 2004, the executive order was signed that directed the 
two departments to work together to assist American Indian and 
Alaska native students in meeting the challenging students 
academic standards of NCLB Act of 2001 in a manner that is 
consistent with tribal traditions, languages, and cultures.
    NIEA encourages a stronger relationship between the two 
departments given the limited capacity of BIE and the larger 
pool of expertise in education and increasing academic 
achievement that is available at the Department of Education.
    In particular, NIEA would like for the Department of 
Education to serve as technical advisers to the BIE regional 
and education line officers when the expertise is not available 
at the BIE on how to improve academic achievement and in 
development of tribal standards and assessments that are 
culturally and linguistically appropriate.
    BIE should strongly support culturally-based education and 
native language instruction. Current research demonstrates that 
cultural education can be successfully integrated into the 
classroom in a manner that would provide native students with 
instruction in the core subject areas based upon cultural 
values and beliefs.
    NIEA proposed amendments to Title VII to provide for more 
emphasis on meeting the unique cultural, language, and 
educational needs of Indian students through enrichment 
programs that supplement other NCLB programs and will result in 
successful academic achievement of Indian students.
    As reported by the National Indian Education Study of 2007 
Part II, BIE students are receiving some exposure to 
instruction in native language and cultural topics. NIEA 
believes that these schools will be models for successful 
integration of native language immersion programs and 
culturally-based education if given the opportunity, support, 
and resources need to implement these types of programs that 
have demonstrated academic success.
    But lack of new construction and the poor facilities and 
maintenance of BIE schools negatively impact the achievement of 
BIE students.
    In March of 2008, the consensus building initiative issued 
a report that stated in their findings that the conditions of 
BIE schools--that many schools are ill-equipped for the 
information age and aging or poor design may lead to a 
substandard educational environment.
    Operation and maintenance needs are not matched by 
operation and maintenance annual funding. And, overall, 
overcrowding is a major concern and a source of accelerating 
physical decline.
    On the average, BIE education buildings are 60 years old, 
but 40 years is the average age for public schools serving the 
general population.
    According to the Hopi tribe chairman, students are at 
extremely higher risk because of exposure to hazardous 
materials in their school facilities. In recent years, they 
have experienced severe reductions in annual appropriations for 
the building operations, maintenance, and repairs program which 
then results in the ever-increasing number of projects placed 
in the facilities, maintenance inventory system.
    While waiting for funding, Hopi students and staff were 
subjected to exposure to hazardous materials, but all the 
schools have asbestos and radon issues, which puts the students 
and staff at risk.
    The research on school building conditions and student 
outcomes find a consistent relationship between poor facilities 
and poor performance. A recent study has shown that students 
attending school in newer, better facilities score 5 to 17 
points higher on standardized tests than those attending in 
substandard buildings.
    It is unjust to expect our students to succeed academically 
if we fail to provide them about a proper learning environment 
to be successful.
    As reported by a witness at regional hearings in South 
Dakota--Wounded Knee, located on Pine Ridge Reservation, runs 
13 bus routes every day traveling an average of 1,575 miles per 
school day, totaling 267,715 miles annually.
    In conclusion, NIEA is committed to accountability, high 
standards, and rigorous education. And I would like to leave 
one word with you, and that is, this is a testimony given by a 
third grader, Samantha Todechine Navajo.
    And she said: ``Good afternoon. My name is Samantha 
Todechine. I am from the Near To Water Clan. I go to school at 
Black Mesa Community School.
    During the winter, when it rains, the road gets muddy. The 
bus driver always tries to stay on the road, but we always 
slide off the road.
    This past winter was terrible. I live across the wash. The 
bus couldn't get across the wash to pick us up. So me and my 
two sisters had to walk about a mile to meet the bus.
    I was crossing the wash when I lost both of my shoes in the 
mud. The bus driver and my sister helped me cross the wash and 
tried to find my shoes.''
    Also, Chairman, for the record, we would like to submit our 
transcripts from the testimonies and also our NCLB amendments. 
Thank you.
    Chairman Kildee. Without objection, they will be included 
in the record.
    [The material may be accessed at the following Internet 
address:]

                 http://www.niea.org/issues/policy.php

                                ------                                

    Dr. Gilbert. Thank you.
    [The statement of Dr. Gilbert follows:]

   Prepared Statement of Dr. Willard Sakiestewa Gilbert, President, 
                 National Indian Education Association

    Chairman Kildee and other Members of the Education and Labor 
Subcommittee on Early Childhood, Elementary, and Secondary Education, 
thank you for this opportunity to submit testimony on behalf of the 
National Indian Education Association with regard to the Bureau of 
Indian Education (BIE) and challenges facing BIE schools in improving 
student achievement. I would like to give a special thank you to 
Chairman Kildee for being such a great champion for ensuring that the 
educational needs of Native students and their communities are met. 
Indian Country has no greater friend in the Congress than Chairman 
Kildee.
    Founded in 1969, the National Indian Education Association (NIEA) 
is the largest organization in the nation dedicated to Native education 
advocacy issues and embraces a membership of nearly 4,000 American 
Indian, Alaska Native and Native Hawaiian educators, tribal leaders, 
school administrators, teachers, elders, parents, and students.
    NIEA makes every effort to advocate for the unique educational and 
culturally related academic needs of Native students. NIEA works to 
ensure that the federal government upholds its responsibility for the 
education of Native students through the provision of direct 
educational services. The trust relationship of the United States 
government includes the responsibility of ensuring educational quality 
and access for American Indians. Recognizing and validating the 
cultural, social and linguistic needs of American Indians is critical 
to guaranteeing the continuity of their communities. The way in which 
instruction and educational services is provided is critical to the 
achievement of our students to attain the same academic standards as 
students nation-wide.
    NIEA is committed to accountability, high standards, and the 
rigorous education of our children and will continue to hold the BIE 
accountable for ensuring that BIE students meet their academic 
potential with educational programs that consider their cultures, 
languages, backgrounds, and identities. We believe with good faith 
collaboration that we can provide our children with an education that 
honors their Native identities while simultaneously preparing them for 
successful futures by providing them with opportunities to incorporate 
into the curriculum their rich cultural heritages, languages, and 
traditions.
    There are only two educational systems for which the federal 
government has direct responsibility: the Department of Defense schools 
and federally and tribally operated schools that serve American Indian 
students through the (BIE) within the Department of the Interior (DOI). 
The federally supported Indian education system includes 48,000 
elementary and secondary students, 29 tribal colleges, universities and 
post-secondary schools. Approximately 10% of Native children attend BIE 
schools while the remaining 90% attend public schools supported through 
the Department of Education (DOE).
    NIEA's membership is concerned about the disparity in academic 
achievement between schools funded and operated by BIE and other 
schools. As a result of these concerns, NIEA scheduled five field 
hearings this year throughout Indian Country. We have already held 
hearings in Rapid City, South Dakota, Seattle, Washington, Albuquerque, 
New Mexico, and Window Rock, Arizona. The purpose of these NIEA 
facilitated sessions has been to gather information on the challenges 
faced by BIE schools, including how NCLB is being implemented, and 
additional concerns of BIE schools impacting the achievement of their 
students. Testimony from the witnesses focused on the following topics: 
1) NCLB and Adequate Yearly Progress, 2) Indian school construction and 
facilities maintenance, and 3) student transportation. Additionally, 
testimony regarding services and funding for Johnson O'Malley programs 
and tribal colleges was offered. These sessions served as a focused 
follow up discussion to the eleven field hearings NIEA held in 2005 on 
the implementation of NCLB in Indian Country. The sessions in 2005 
served as the basis for the legislative language NIEA has proposed for 
inclusion in the bill to reauthorize NCLB.
    This past June, the GAO issued the report, Bureau of Indian 
Schools: Improving Interior's Assistance Would Help Some Tribal Groups 
Implement Academic Accountability Systems pursuant to a request of 
Chairman Miller, Chairman Kildee, Representative Grijalva, and 
Representative Herseth Sandlin. This report highlighted many challenges 
that BIE and DOE schools, tribal communities, and Indian students face 
under the Act and raised questions about the effectiveness of the BIE 
and the Department of Education in providing educational services to 
Indian students.
    The following is a summary of the concerns NIEA has heard 
throughout the past few years on BIE schools and student achievement. 
NIEA has provided recommendations for some of the concerns raised, 
including legislative amendments to NCLB provided to the Committee in 
March of 2007.
Stronger Cooperation Between the Departments of Education and Interior
    Executive Order 13336, signed by President Bush in April of 2004, 
directed the DOE and DOI, among other Federal agencies, to work 
together to ``assist American Indian and Alaska Native students in 
meeting the challenging student academic standards of the No Child Left 
Behind Act of 2001 (Public Law 107-110) in a manner that is consistent 
with tribal traditions, languages, and cultures.'' \1\
    DOE funds the education of Native American students by operating 
Native American-targeted programs and setting aside funds within 
programs open to all students and transferring these funds to the BIA 
for BIE managed schools. Often, that is where the interaction between 
the two Departments ends, despite the directive given in the Executive 
Order for the agencies to work together. NIEA encourages a stronger 
relationship between the two Departments given the limited capacity of 
BIE and the larger pool of expertise in education available at DOE. In 
particular, NIEA recommends that DOE serve as technical advisors to the 
BIE Regional and Education Line Offices when the expertise is not 
available at the BIE on how to improve academic achievement and in the 
development of tribal standards and assessments.
Adequate Yearly Progress
    For the past three school years, only 30% of BIE schools made 
theAYP goals established by the state in which the school was located. 
DOE statistics indicate that student performance at BIE schools is 
lower than for students in public schools. In response to the lack of 
performance at BIE schools, DOI has launched the Improving Indian 
Education Initiative to help BIE students meet AYP under NCLB. NIEA 
commends BIE for this effort and hopes to see positive gains in BIE 
student academic achievement as a result. However, NIEA remains 
concerned about the applicability of state standards to Native children 
attending BIE schools given the limited, if any, opportunities Tribes 
have had in the development of these standards.
    Tribal communities are in the best position to determine the needs 
and the appropriate assessment methods for Native students. NIEA's 
amendments to NCLB provide for the ability of a consortium of tribes, 
BIE funded schools, or school boards to apply for a waiver of the 
definition of AYP. As the law is currently written, a single tribe, 
school board or BIE funded school may apply for a waiver, however, 
considering the significant amount of time and resources needed to 
successfully submit an application, very few tribes, if any, have been 
able to submit an application on their own.
    Additionally, NIEA supports a structured process with BIE that 
provides deadlines for the BIE to respond to tribes that submit an 
application to waive the definition of AYP, in addition to an appeals 
process. As reported in the GAO report ``one tribal group alerted BIE 
of its intent to use an alternative assessment as early as October 2006 
but did not receive any response from BIE until June 2007 and technical 
assistance was not provided until November 2007.'' \2\
    Other challenges that have prevented tribes from applying for an 
alternative definition of AYP include the lack of technical assistance 
provided to the tribe from the BIE, the lack of funding available to 
develop the standards and assessments, and the lengthy commitment 
needed to navigate the process to complete the application.\3\ NIEA 
supports a defined process that provides a timeline in reviewing the 
applications for alternative definitions of AYP and collaboration 
between DOE and BIE to provide technical assistance to tribes seeking 
to apply and develop an alternate definition of AYP.
Increased Collaboration among Tribes, States, and the Federal 
        Government
    For tribes that are unable to develop their own standards and 
assessments and must use the state definitions, states should be 
required to involve tribes located within their boundaries in the 
development of state plans to allow for the coordination of activities 
under the different titles of NCLB. As documented in the GAO report, 
more often than not, states develop the standards without consultation 
and inclusion of the tribal communities although the BIE and ``almost 
all of the 174 BIE schools have adopted state definitions of AYP''.\4\
    NIEA seeks stronger emphasis in encouraging states, tribal 
governments and communities, neighboring areas, and the federal 
government to work together in developing the educational standards and 
related assessments under Title I.\5\ NIEA's proposed amendments to the 
NCLB provide for the inclusion of tribal input in the development of 
the various state, local educational agency, and school plans. Further, 
NIEA supports the strengthening of NCLB to provide resources for 
collaboration among tribes, states, and the federal government to allow 
for increased opportunities in the development of standards that 
recognize the cultural backgrounds of Native students. NIEA supports 
assessments that consider the cultural and educational needs of Native 
students. Additionally, NIEA's amendments promote coordination of 
programs across Titles I and VII to foster better programming to meet 
the unique cultural, language, and educational needs of Indian 
students.
Culturally Relevant Programs
    Current research demonstrates that cultural education can be 
successfully integrated into the classroom in a manner that would 
provide Native students with instruction in the core subject areas 
based upon cultural values and beliefs. Math, reading, language arts, 
history, science, physical education, music, cultural arts and other 
subjects may be taught in curricula instilled in Native traditional and 
cultural concepts and knowledge. The National Science Foundation funded 
Native Science Connections Research Project at Northern Arizona 
University, is a research model that successfully integrated native 
language, culture and traditions into BIA funded schools' science 
elementary curriculum. On-going analysis of data revealed increased 
student mastery of science and math concepts, deeper levels of student 
engagement in science and math and increased student achievement in 
math and science.\6\
    Title VII of NCLB recognizes that Native children have unique 
educational needs due to their cultures and backgrounds. The purpose of 
Title VII \7\ of NCLB is to provide culturally based educational 
approaches for Native students. These approaches have been proven to 
increase student performance and success as well as awareness and 
knowledge of student cultures and histories. In general, these 
approaches include recognizing and utilizing native languages as a 
first or second language, pedagogy that incorporates traditional 
cultural characteristics and involves teaching strategies that are 
harmonious with the native culture knowledge and contemporary ways of 
knowing and learning. It also includes curricula based upon native 
culture that utilizes legends, oral histories, songs and fundamental 
beliefs and values of the community. In addition, it involves parents, 
elders and cultural experts as well as other community members' 
participation in educating native children utilizing the social and 
political mores of the community.\8\ Part A of Title VII deals 
specifically with the education of American Indians and Parts B and C 
address the educational needs of Native Hawaiian and Alaskan Native 
students. NIEA has proposed amendments to focus the purpose of Title 
VII to include both academic achievement through culturally based 
education and to increase the cultural and traditional knowledge base 
of Indian students.
    As stated above, Part A of Title VII contains provisions for 
American Indian Education and provides supplemental grants to the BIE 
and local educational agencies, tribes, Native organizations, 
educational organizations, and others to provide programs and 
activities to meet academic, cultural, and language needs of Native 
children. Native learning is strengthened through instruction that 
integrates traditional cultural practices with basic skills and 
embraces the knowledge of the environment, Native fine arts and crafts, 
leadership, character education and citizenship.
    The National Indian Education Study 2007: Part II reported that 
there is a higher percentage of students in schools with a high density 
of Indian student population that receive instruction on topics related 
to native cultures as compared to students in low density Indian 
student population schools.\9\ Students attending BIE schools fall 
within the high density schools definition. Additionally, the report 
goes on to state that higher percentages of BIE school students than 
public school students had teachers who reported integrating Native 
culture and history into their curriculum. ``For example, higher 
percentages of fourth- and eighth graders in BIE schools than in public 
schools had teachers who said the integration of AI/AN culture and 
history into their curriculum occurred ``almost every day.'' \10\ The 
study also noted that ``teachers' reliance on AI/AN content or cultural 
standards for reading/language arts instruction was reported for higher 
percentages of BIE school students than for their peers in public 
schools.'' \11\
    NIEA believes that the BIE should expand upon the culturally based 
instruction currently taking place in BIE schools by promoting stronger 
integration of Native cultures and languages into the curriculum. Given 
that Native children are performing at far lower academic achievement 
levels than other categories of students, Title VII programs should be 
expanded and strengthened to ensure that No Child Left Behind also 
means No Culture Left Behind through the use of culturally based 
education to meet the unique educational needs of Native students. 
NIEA's proposed amendments to Title VII provide for more emphasis on 
meeting the unique cultural, language and educational needs of Indian 
students through enrichment programs that supplement other NCLB 
programs and will result in improved academic achievement of Indian 
students
Native Language Programs
    Native language immersions programs have fostered higher academic 
achievement and interest in learning from American Indian, Alaska 
Native, and Native Hawaiian students. Studies have shown that while 
Native American children and youth have often experienced stagnant 
educational achievement, those in Native language immersion programs 
have demonstrated remarkable promise in educational achievement.\12\ 
National studies on language learning and educational achievement 
indicate the more language learning, the higher the academic 
achievement. Native language immersion programs provide a proven method 
to enable Native students to achieve academically in the areas of math, 
reading, and science as well as in other content areas. For many Native 
students living in rural and isolated areas, subjects that are taught 
in non-cultural pedagogies and removed from a tribal perspective are 
often lost on Native students due to the non-relevance of the materials 
to their environment, lives and identities.
    The National Indian Education Study 2007: Part II reported that 16% 
of fourth grade BIE students had teachers who used Native languages 
frequently during instruction compared to one percent of the public 
school students.\13\ NIEA is pleased that BIE students are receiving 
some exposure and instruction in Native languages and supports stronger 
Native language curriculum at BIE schools. NIEA believes that BIE 
schools could be the models for successful integration of Native 
language immersion programs and culturally based education if given the 
opportunity and support needed to implement these specific types of 
programs.
Indian School Construction
    In 1997, GAO issued a report ``Reported Condition and Costs to 
Repair Schools Funded by the Bureau of Indian Affairs'' that documented 
an inventory of repair needs for education facilities totaling $754 
million. In 2004 the backlog for construction and repair was reported 
to have grown to $942 million.
    More recently, in March of 2008, the Consensus Building Institute 
(CBI) with the U.S. Institute for Environmental Conflict Resolution 
issued a Final Convening Report: Negotiated Rulemaking Committee on 
Bureau of Indian Affairs-Funded Schools Facilities Construction. CBI 
reported in their findings of the conditions of the schools that ``many 
schools are ill equipped for the information age'', ``security needs 
and related funding are major sources of concern for many schools'', 
``aging or poor design may lead to a substandard educational 
environment'', ``operation and maintenance needs are not matched by 
operation and maintenance annual funding'', and ``overcrowding is a 
major concern and a source of accelerating physical decline.'' \14\ 
Additionally, the report stated in the findings that the Facility 
Management Information System (FMIS) doesn't sufficiently allow for 
educational programming needs, including libraries, adequately sized 
classrooms and gymnasiums, wiring to allow for technological needs and 
partitions and noise reducing walls.\15\
    Testifying at the NIEA sponsored BIA/BIE Regional Hearing in Navajo 
Nation/Window Rock, AZ, Hopi Tribal Chairman, Benjamin Nuvamsa stated, 
``our students are at extremely high risk because of exposure to 
hazardous materials in our school facilities * * * [recently] severe 
reductions in annual appropriations for the building Operations, 
Maintenance and Repairs (OM&R) program results in the ever-increasing 
number of projects placed in the Facilities Maintenance Inventory 
System (FMIS). While waiting for funding, our students and staff are 
subjected to exposure to hazardous materials * * * almost all schools 
have asbestos and radon issues which puts the students and staff at 
risk.'' \16\
    The amount of funding over the past few years have failed to fund 
tribes at the rate of inflation, once again exacerbating the hardships 
faced by Native American students. Further, the funding that has been 
allocated over the past few years will not keep pace with the 
tremendous backlog of Indian schools and facilities in need of 
replacement or repair. The Mandaree Day School located in Mandaree, 
North Dakota has taken out a loan in the amount of $3 million to cover 
the costs of building a new education facility. The Mandaree Day School 
could not wait any longer for the funding from DOI to build their 
school. The loan only covers the facility structure and the 210 
children attending this school have no playground and the teachers do 
not have a paved parking lot.
    The purpose of education construction is to permit BIA to provide 
structurally sound buildings in which Native American children can 
learn without leaking roofs and peeling paint. It is unjust to expect 
our students to succeed academically, if we fail to provide them with a 
proper environment to achieve success.
Indian Education Facilities Improvement and Repair Funding
    The continued deterioration of facilities on Indian land is not 
only a federal responsibility; it has become a liability of the federal 
government. Old and exceeding their life expectancy by decades, BIA 
schools require consistent increases in facilities maintenance without 
offsetting decreases in other programs, if 48,000 Indian students are 
to be educated in structurally sound schools.
    Of the 4,495 education buildings in the BIA inventory, half are 
more than 30 years old and more than 20% are older than fifty years. On 
average, BIE education buildings are 60 years old; while, 40 years is 
the average age for public schools serving the general population. 65% 
of BIE school administrators report the physical condition of one or 
more school buildings as inadequate. Although education construction 
has improved a bit over the last few years, the deferred maintenance 
backlog is still estimated to be over $500 million and increases 
annually by $56.5 million. As noted by the House Interior 
Appropriations Subcommittee in its Committee Report accompanying the FY 
2006 Interior appropriations bill, ``much remains to be done.'' Of the 
184 BIE schools, \1/3\ of the schools are in poor condition and in need 
of either replacement or substantial repair.
School Transportation
    Student transportation impacts student attendance and the ability 
of school districts to offer educational programs. BIE provides 
extensive student transportation required of largely rural and widely 
dispersed school service populations. According to the FY 2009 DOI 
Budget Request, Departmental Highlights, during the current school 
year, BIE-funded school buses will travel nearly 15 million miles, 
often over gravel or dirt roads. As reported by a witness during the 
session NIEA held in Rapid City, South Dakota, the Little Wound School, 
located on the Pine Ridge Reservation in South Dakota, runs thirteen 
bus routes each day during which the buses travel on average, 1,575 
miles per school day totaling 267,750 miles annually for ``regular bus 
runs not including activity runs.'' \17\ An additional seven buses run 
each day for the after school activities for athletic trips, field 
trips, activity runs, medical trips, etc., totaling 106,083 miles per 
year. In addition, Navajo Nation's Black Mesa Community School 
Principal Marie Rose testified that ``students ride the bus four hours 
a day. However, when it rains or snows the average bus ride is seven 
hours a day, if the roads are in drivable condition, which many times 
are they are not.'' \18\
    The FY 2009 DOI Budget Request notes that the condition of roads 
often traveled by BIE-funded school buses increases the wear and tear 
on vehicles, requiring more routine maintenance and more frequent 
replacement of vehicles by BIE compared to other school systems and 
further notes that the remote location of the BIE schools also results 
in higher fuel costs relative to other locales.
    The cost of fuel is steadily rising and transportation costs is a 
major concern for a number of school districts that serve American 
Indian and Alaska Native students and if assistance is not available 
through federal or state resources, the high cost of transporting 
students in rural areas may offset precious funding that could 
potentially be used for instructional purposes. Little Wound School has 
reported that a shortfall of $170,411.15 for transportation funding 
``has had a tremendous effect on our budget.''\19\
Johnson O'Malley Funding
    President Bush continues to attempt elimination of Johnson 0'Malley 
(JOM) grants and NIEA and the Johnson O'Malley Association Board urge 
Congress to continue supporting these programs crucial to Indian 
students.
    Although the purpose of JOM funding administered by the BIA is to 
support Indian students in public schools, we find that JOM programs 
have an impact on the education of many of the Indian students 
attending BIE schools due to the transitory nature of Indian students 
between BIE and public schools.
    JOM grants are the cornerstone for many Indian communities in 
meeting the unique and specialized educational needs of Native students 
who attend public schools. Many Indian children live in rural or remote 
areas with high rates of poverty and unemployment. JOM helps to level 
the field by providing Indian students with programs that help them 
stay in school and attain academic success. Even though JOM funding is 
extremely limited due to BIA budget constraints, it is being used 
across the country in a variety of basic as well as innovative ways to 
assist Indian students to achieve academically. JOM funding provides 
vital programs designed to build self-esteem, confidence, and cultural 
awareness so that Indian students may develop and mature to become 
productive and contributing citizens within their communities and 
society respectively. For example, JOM funds help students achieve and 
succeed by providing such services as: eyeglasses and contacts, resume 
counseling, college counseling, culturally based tutoring, summer 
school, scholastic testing fees, school supplies, transition programs, 
musical instruments, Native youth leadership programs, student 
incentive programs, financial aid counseling, fees for athletic 
equipment and activities, caps and gowns, art and writing competitions, 
etc. Other programs administered by the federal government, such as 
NCLB funding at DOE, do not allow funding for these types of 
activities.
    For example, in Vinita, Oklahoma, Native students have benefited in 
a variety of ways through its JOM program funds. by providing 
``opportunities and activities that assist in the development of the 
students leadership skills, enhances their self-esteem, provides 
cultural education and pride and provides assistance to extremely 
stretched parent budgets so their children have cultural educational 
opportunities that they might not otherwise have. These activities have 
involved the students, parents, community, schools and representatives 
from the Cherokee Nation. Increased enrollments at Vinita have seen an 
increased need for additional JOM funding therefore cutting the JOM 
funding would be detrimental to all Native students including those in 
Vinita.'' \20\
    Under-funding of JOM is exacerbated by certain factors. In 1995, a 
freeze was imposed on JOM funding through DOI, limiting funds to a 
tribe based upon its population count in 1995. The freeze prohibits 
additional tribes from receiving JOM funding and does not recognize 
increased costs due to inflation and accounting for population growth. 
NIEA urges that the JOM funding freeze be lifted and that other 
formula-driven and head count-based grants be analyzed to ensure that 
tribes are receiving funding for their student populations at a level 
that will provide access to a high quality education.
Tribal Education Departments
    As mandated in many treaties and as authorized in several federal 
statutes, the education of Indian children is an important role of 
Indian tribes. The involvement of tribes in their children's 
educational future is key to the educational achievement of Indian 
children. Tribal Education Departments (TEDs) provide tribes with the 
opportunities to become actively involved in the education of their 
children. The authorization for TED funding in DOI and in DOE is 
contained in Title VII, Section 7135 of NCLB. Despite this 
authorization and several other prior statutes, federal funds have 
never been appropriated for TEDs. The use of TEDs would provide tribes 
with greater ability to meet the educational needs of their students 
and would ensure that tribes can more readily improve the education of 
their youngest members.
    TEDs develop educational policies and systems for Indian 
communities that are attuned to the cultural and specialized academic 
needs of Indian students. TEDs partner with the federal government and 
state governments and schools to improve education for tribal students. 
NIEA requests that both DOI and DOE fund tribal education departments.
Conclusion
    As part of its efforts on reauthorization, NIEA will continue to 
perform as much outreach as possible so that Congress can better 
understand the needs of Native students, thereby allowing student needs 
to be addressed during reauthorization of NCLB. I speak to you on 
behalf of all our Native children and the need to ensure their 
successful academic achievement. We, NIEA's membership, are their voice 
and as President of NIEA, I am obligated and privileged to advocate for 
their future.
    I would like to leave with this last thought by Charles Eastman 
(Santee). ``The public position of the Indian has always been entirely 
dependent upon our private virtue. We are never permitted to forget 
that we do not live for ourselves alone, but also for our tribe and 
clan. Every child, from the first days of learning, is a public servant 
in training.''
    NIEA thanks the Committee for its tremendous efforts on behalf of 
Native communities. With your support we are hopeful that we can 
improve the programs and funding for education that Native communities 
deserve.
    Kwakwha!
                                endnotes
    \1\ Executive Order No. 13336, American Indian and Alaska Native 
Education (April 30, 2004).
    \2\ United States Government Accountability Office,(June 2008). 
Bureau of Indian Education Schools, Improving Interior's Assistance 
Would Help Some Tribal Groups Implement Academic Accountability 
Systems, p. 8.
    \3\ Ibid, p. 5.
    \4\ United States Government Accountability Office (June 2008). 
Bureau of Indian Education Schools, Improving Interior's Assistance 
Would Help Some Tribal Groups Implement Academic Accountability 
Systems, p. 4.
    \5\ NIEA's Amendments to the No Child Left Behind Act, March 2007.
    \6\ The Reauthorization of No Child Left Behind in Indian Country: 
Hearing before the U.S. House of Representatives Education and Labor 
Committee, 110th Cong., 1st Sess. (2007) (testimony of Dr. Willard 
Sakiestewa Gilbert, President-Elect, National Indian Education 
Association).
    \7\ Title VII of the No Child Left Behind Act incorporates the 
Indian Education Act of 1972.
    \8\ Demmert, W. G. & Towner, J. C. (2003). A Review of the Research 
Literature on the Influences of Culturally Based Education on the 
Academic Performance of Native American Students. Northwest Regional 
Educational Laboratory, Portland OR
    \9\ National Indian Education Study 2007: Part II.
    \10\ National Indian Education Study 2007: Part II, p. 39.
    \11\ National Indian Education Study 2007: Part II, p. 40.
    \12\ Pease-Pretty on Top, J. (2003). Native American Language 
Immersion: Innovative Native Education for Children & Families. 
American Indian College Fund: Denver, Colorado.
    \13\ National Indian Education Study: Part II, p. 38.
    \14\ The Consensus Building Institute with the U.S. Institute for 
Environmental Conflict Resolution (March 5, 2008). Final Convening 
Report: Negotiated Rulemaking Committee on Bureau of Indian Affairs--
Funded School Facilities Construction, pp. 16-18.
    \15\ Ibid,. p. 19.
    \16\ Bureau of Indian Affairs and Bureau of Indian Education: 
Hearings before the National Indian Education Association, Widow Rock, 
AZ (August 21, 2008) (testimony of Benjamin Nuvamsa, Hopi Tribal 
Chairman).
    \17\ Bureau of Indian Affairs and Bureau of Indian Education 
Transportation Cost Funding: Hearings before the National Indian 
Education Association, Rapid City, SD, (July 10, 2008) (testimony of 
Janice Richards, President, Little Wound School).
    \18\ Bureau of Indian Affairs and Bureau of Indian Education: 
Hearings before the National Indian Education Association, Widow Rock, 
AZ (August 21, 2008) (testimony of Marie Rose, Black Mesa Community 
School Principal, Navajo Nation).
    \19\ Ibid., p. 3.
    \20\ Bureau of Indian Affairs and Bureau of Indian Education: 
Hearings before the National Indian Education Association, Widow Rock, 
AZ (2008) (written testimony submitted by Lisa Trice-Turtle, Cherokee 
Nation).
                                 ______
                                 
    Chairman Kildee. Stan Holder?

STATEMENT OF STANLEY R. HOLDER, CHIEF, DIVISION OF PERFORMANCE 
AND ACCOUNTABILITY, BUREAU OF INDIAN EDUCATION, U.S. DEPARTMENT 
                        OF THE INTERIOR

    Mr. Holder. Good morning, Mr. Chairman and members of the 
committee. My name is Stan Holder. I am the chief of the 
division of performance and accountability for the Bureau of 
Indian Education in the Department of Interior.
    I am pleased to be here to speak on behalf of the 
department concerning the recent GAO report entitled, ``Bureau 
of Indian Education Schools; Improving Interior's Assistance 
Would Help Some Tribal Groups Implement Academic Accountability 
System.''
    The division of performance and accountability acts as the 
state educational agency for the Bureau of Indian Education. As 
such, the division is responsible for oversight and supervision 
for 184 instructional and residential programs in 23 states.
    Fifty-nine of the programs are operated by the BIE, and 125 
are tribally operated under the provisions of Public Law 107-
110 and Public Law 93-638.
    The GAO report states accurately that BIE has attempted to 
negotiate MOUs with all 23 states to facilitate the assessment 
process. This process is mandated by the final rule for 
implementation of No Child Left Behind.
    Today, BIE has been successful in acquiring 11 MOUs with 
states that have BIE instructional programs. BIE shares the 
GAO's concern for gaining MOUs with the 12 remaining states. 
BIE has encountered varying responses from the states that 
range from silence to unreasonable conditions.
    Two states that have presented unique barriers are 
California and New Mexico. California's initial response to the 
BIE's proposal to establish an MOU contained the requirement 
for a $1 million bond to be put in place to ensure test item 
security.
    Negotiations were stagnant until 2 months ago when, with 
the assistance of the Department of Education, dialogue was 
reestablished with the California Office of Assessment. BIE 
would like to achieve a reasonable agreement and have an MOU in 
place in the not-too-distant future.
    The state of New Mexico initially agreed to and signed an 
MOU with BIE. Shortly thereafter, New Mexico rescinded the MOU 
and then insisted that BIE consult with a New Mexico tribe to 
establish an MOU with the state.
    This presents an issue since BIE is required to utilize New 
Mexico's assessment process under the final rule. The final 
rule was the result of the negotiated rulemaking which is 
supposed to be the highest form of consultation.
    The GAO report also addresses some of the issues 
encountered in BIE's effort to provide technical assistance to 
tribally-controlled schools that have requested alternate AYP 
progress definition waivers.
    To date, there have been three such requests. The three 
requests are from the Navajo Nation, the Miccosukee Tribe of 
Florida, and the Oceti Sakowin Education Consortium or OSEC, 
which is made up of 17 tribally-operated schools in North and 
South Dakota.
    The BIE and representatives of the Department of Education 
met with the Navajo Nation within days of the Nation's initial 
request. The BIE has also provided technical assistance to the 
Navajo Nation via a contractor. BIE has not received additional 
correspondence or requests from the Navajo Nation or the Dine' 
Department of Education that acts on behalf of the Navajo 
Nation.
    The BIE and the Department of Education have had various 
meetings and site visits with the Miccosukee tribal school, 
tribal elected officials, and their tribal attorneys. The BIE 
and the Department of Education have provided technical 
assistance to the tribe via site visits and through a 
contractor.
    The most recent communication that we received from the 
tribe was a call from the Miccosukee tribal school's 
administrator stating that the school and the tribe did not 
require any further technical assistance from the BIE.
    BIE staff have traveled to South Dakota to meet with the 
Oceti Sakowin Consortium representatives beginning in 2005 to 
assist OSEC in developing their initial request for an 
alternative AYP definition waiver.
    The BIE and the Department of Education have met with OSEC 
representatives to explain and provide technical assistance on 
a waiver request process and a peer review process for 
establishing an alternative assessment.
    BIE has also provided technical assistance to OSEC through 
a contractor. Most recently, the BIE transferred funds to 
OSEC's fiscal agent for the purpose of initiating development 
of a Dakota, Lakota, and Nakota language assessment process to 
carry out the community activities and meetings necessary to 
develop that assessment and to carry out legal research on 
proposed changes to the BIE accountability workbook in an 
effort to expedite that process.
    The BIE is addressing the four recommendations made in the 
GAO report which is stated in my written testimony.
    In closing, I would like to state that the education of 
Indian children is critical to improving the quality of life of 
Indian communities. Assessments and resulting AYP 
determinations are valuable measures used to determine the 
quality of instruction in the classroom.
    These measures provide administrators and teachers the 
opportunity to improve instruction so that students can achieve 
academic success.
    NCLB has provided a framework and goals for all students to 
be proficient in math and reading by 2014. Indian students in 
BIE and public schools face unique challenges--poverty, loss of 
identity, and isolated communities are but a few of these 
challenges.
    However, our children will compete for employment, post-
secondary education opportunities, and career opportunities on 
a global scale.
    It is all of our responsibility to ensure that they are 
prepared to meet these challenges.
    I thank you for the opportunity to appear here today, and I 
will be happy to answer any questions the committee may have.
    [The statement of Mr. Holder follows:]

 Prepared Statement of Stanley Holder, Chief, Division of Performance 
   and Accountability, Bureau of Indian Education, Department of the 
                                Interior

    Good morning, Mr. Chairman and Members of the Committee. My name is 
Stan Holder, and I am the Chief, Division of Performance and 
Accountability for the Bureau of Indian Education at the Department of 
the Interior (Department). I am pleased to be here today to speak on 
behalf of the Department about the recent GAO report entitled, Bureau 
of Indian Education Schools: Improving Interior's Assistance Would Help 
Some Tribal Groups Implement Academic Accountability Systems. (GAO-08-
679)

Background
    The Bureau of Indian Education (BIE) was established on August 29, 
2006. The BIE is the former Office of Indian Education Programs, which 
was renamed in 2006 to reflect the parallel purpose and organizational 
structure BIE has in relation to other programs within Indian Affairs. 
The BIE supports education programs and manages residential facilities 
for Indian students of federally recognized tribes at 184 elementary 
and secondary schools, and dormitories. The BIE operates 59 schools and 
dormitories with the remaining 125 operated by the tribes through 
contracts or grants. These schools are located on 63 reservations in 23 
states. The BIE has the responsibilities of a State Educational Agency 
(SEA) for this nationwide school system.
    During the 2007 to 2008 school year, BIE-funded schools served 
approximately 44,000 Indian students and residential boarders; however, 
less than 10 percent of all American Indian children in the United 
States attend BIE-funded schools. Approximately 5,000 teachers, 
professional staff, principals, school administrators, and support 
personnel work within the BIE-operated schools.

GAO Report
    The ``No Child Left Behind Act of 2001'' (NCLB), which reauthorized 
the Elementary and Secondary Education Act of 1965 (ESEA), emphasizes 
accountability for results in improving the academic success of 
students served by these programs. The statute requires schools 
receiving ESEA, Title I funds to achieve adequate yearly progress (AYP) 
based on annual targets towards the goal of all students achieving 
academic proficiency in reading and mathematics by school year 2013-
2014. Under the statute, a school's achievement of its annual AYP 
targets is based primarily on student assessment results broken out by 
race and ethnicity, poverty, disability status, and limited-English-
proficiency status.
    The NCLB required the Department of the Interior to undertake 
formal negotiated rulemaking to create regulations in certain areas, 
including regulations defining AYP for BIE-funded schools. A team 
comprised of federal officials, tribal leaders, and Indian education 
professionals developed the regulations through ``consensus'' decision-
making. All twenty-five committee members agreed to the final 
negotiated product. These regulations became effective on May 31, 2005.
    The regulations defining AYP, mentioned above, provided that 
tribally-controlled schools would implement the definition of the State 
in which the particular school was located but could waive all or part 
of the State definition and propose an alternative definition. The 
alternative definition would be subject to approval of the Secretaries 
of the Interior and Education.
    On June 27, 2008, the Government Accountability Office (GAO) issued 
a report entitled Improving Interior's Assistance Would Help Some 
Tribal Groups Implement Academic Accountability Systems. The report 
identifies the challenges associated with the implementation of the AYP 
final rule. It also included four recommendations that I would like to 
discuss briefly.

Recommendation--establish Memoranda of Understanding with States that 
        lack agreements with the BIE
    There are currently 23 different State definitions of AYP being 
applied throughout the BIE school system, leaving the BIE without a 
single standard AYP determination process. Instead, the BIE's 
responsibility was to approach the States with the expectation that the 
States would enter into a written agreement to provide assessments and 
scoring results, and, in some cases provide AYP determinations for BIE-
funded schools in their respective States.
    Currently, the BIE has 11 MOUs in place with the following states: 
Idaho, Iowa, Kansas, Maine, Montana, Nevada, North Dakota, Oregon, 
South Dakota, Washington, and Wyoming. The BIE continues to pursue MOUs 
with the following 12 states: Arizona, California, Florida, Louisiana, 
Michigan, Minnesota, Mississippi, New Mexico (once signed and then 
rescinded), North Carolina, Oklahoma, Utah, and Wisconsin, in order to 
complete an MOU with each.
    One of the recommendations contained in the GAO report is that the 
BIE finalize the remaining 12 MOUs. GAO is concerned that States 
without an MOU could change policies regarding access to State 
assessments and scoring services. The BIE agrees that MOUs should be 
entered into with the remaining States. We are working with tribal 
governments in pursuing negotiations with these States.

Recommendation--provide assistance to tribally controlled schools 
        seeking a different definition of AYP
    Another issue raised by the GAO is its concern regarding the 
assistance provided to Tribes that would prefer to pursue an alternate 
AYP definition waiver. Two tribes, the Navajo Nation and the Miccosukee 
Tribe, and one tribal consortium, the Oceti Sakowin Education 
Consortium (OSEC), have begun to develop alternatives to State AYP 
definitions, in part, to make standards and assessments reflect their 
tribal culture. The report states that the two tribes and the tribal 
consortium identified a lack of federal guidance and communication, 
including having received limited technical assistance from the BIE.
    In response, the BIE has contracted with Research in Action, Inc to 
provide technical assistance to the Navajo Nation and OSEC to organize 
the Tribes alternate AYP definition initiatives and expedite the 
process. The contractor has identified the need for both the OSEC and 
the Navajo Nation to develop focused purposes, expected outcomes, and 
the administrative infrastructure needed to work with an assessment 
vendor. This development structure will also assist tribal groups in 
understanding the need for an administrative infrastructure to initiate 
and maintain an assessment system.

Navajo Nation
    The Navajo Nation submitted a request for an alternate AYP 
definition waiver request to BIE in November 2007. BIE responded and 
attempted to set a date for an initial meeting with the Navajo Nation 
on November 15, 2007. Representatives from the BIE and the Department 
of Education met with Navajo Nation representatives on March 6, 2008, 
as an initial step in the technical-assistance process. The Department 
of Education's representatives explained the requirements for 
developing, administering, and maintaining a standards and assessment 
system, including the external peer review of each assessment system to 
ensure that it meets the requirements of the ESEA.
    The Navajo Nation discussed the conceptual framework they would use 
to assess students. The frame work was based on standards and 
assessments that would have the results weighted on social pathology 
that exists in reservation communities. Both BIE and the Department of 
Education provided guidance as to the difficulty that would be embedded 
in such an approach. Also expressed was the concern that adding weight 
based upon the proposed process would minimize the identification of 
these social issues and could possibly decrease efforts to address the 
therapeutic and rehabilitative services to address them. The BIE has 
not received further correspondence or requests from the Navajo Nation 
for alternate AYP definition waiver purposes. The BIE consultant, 
Research In Action is still available to the Navajo Nation for 
technical assistance, upon request.

Oceti Sakowin Education Consortium (OSEC)
    OSEC made its initial request on August 6, 2006. BIE staff have met 
with OSEC to explain the process and to establish tasks and timelines 
to facilitate its request. We are waiting for the OSEC to provide a 
focused process that would pass the peer review process in the 
Standards and Assessment Peer Review Guidance dated April 2004 (and 
updated December 2007) and distributed by the U.S. Department of 
Education (Education) for all State and tribe standards and assessments 
systems.
    Extensive discussions have taken place between the BIE and OSEC to 
arrive at objectives that are in compliance with statute and can be 
accomplished and supported by the current structure of the BIE. For 
example, OSEC's most recent request is to (1) extend the time frame for 
all students to be proficient by 2014 to 2018; and (2) extend the 
Annual Measurable Objectives (AMO) to reflect this change These changes 
are statutory and would require amendments to the ESEA.

Miccosukee Tribe
    The Miccosukee Tribe submitted a request for an alternate AYP 
definition waiver to BIE in 2007. The Tribe also requested that the 
school be held harmless for AYP-determination purposes until the 
alternate AYP definition was granted. The BIE has honored this request 
with the expectation that the Tribe would move quickly to request the 
amendment to the State Accountability Workbook, develop standards and 
assessments, and prepare for peer review.
    The BIE and the Department of Education met with the Miccosukee 
Tribe in the State of Florida on November 20, 2007, and again on 
February 8, 2008, to provide technical assistance and an overview of 
the requirements for a standards and assessment system, and an overview 
of the peer review requirements. In addition, the BIE has offered 
ongoing technical assistance to the Tribe through the BIE contractor, 
Research in Action.
    The Miccosukee Tribe has communicated verbally to the BIE that it 
does not need further technical assistance in the form of funding or 
contractual support and that the Tribal Council has determined that the 
Tribe will absorb the cost and be responsible for developing the 
request. As of this date, BIE has not received any further information. 
However, a determination will have to be made concerning how long a 
school can be held harmless for an AYP determination.

Recommendation--provide guidelines and training to tribally controlled 
        schools seeking an alternative definition of AYP
    Another recommendation in the GAO report was for the BIE to provide 
guidelines and training to tribally controlled schools on the process 
for seeking and approving alternatives to defining AYP. As mentioned 
above, we are assisting tribally controlled schools in pursuing 
alternate AYP definition waivers. We are providing guidance and 
training through presentations at national education meetings and 
conferences throughout Indian Country. In addition, the BIE is working 
on formalizing its guidance and training and will provide it to the 
public on its website when ready.
Recommendation--BIE should establish internal response time frames and 
        process to ensure timely responses to tribal groups requesting 
        assistance
    The GAO recommended that the BIE establish internal response times 
and processes. The BIE is logging in all correspondence and responses, 
including e-mails, regarding technical assistance requests. Upon the 
receipt of a technical assistance request, the BIE will identify and 
provide a point person to work with the Tribe on its request. A 
consultant will provide guidance and a project- management document 
identifying the activities and timelines for the technical assistance 
with the tribal entity. BIE will require that a progress report be 
provided at regular intervals and Education Line Officers will receive 
training on standards, assessments, and accountability expectations for 
alternate AYP definitions.

Conclusion
    In closing, I would like to state that the education of our 
children is everyone's responsibility. Assessments, and the resulting 
AYP determinations, are one important measure used to determine the 
quality education children are receiving. They provide administrators 
and teachers the opportunity to improve and tailor instruction to raise 
achievement and close achievement gaps. NCLB has provided the frame 
work and goals to facilitate this process. It is up to us, working 
together, to set the standards and use the information we receive from 
assessments, to facilitate improved instruction and truly close the 
achievement gap for Indian students.
    Thank you for the opportunity to appear before you today. I will be 
happy to answer any questions you may have.
                                 ______
                                 
    Chairman Kildee. Thank you very much for your testimony.
    And Ms. Dudro?

  STATEMENT OF ANNE CAMPBELL DUDRO, CHIEF OF STAFF, OFFICE OF 
    ELEMENTARY AND SECONDARY EDUCATION, U.S. DEPARTMENT OF 
                           EDUCATION

    Ms. Dudro. Good morning. Thank you Chairman Kildee, Ranking 
Member Castle, and all the members of the subcommittee for 
inviting the U.S. Department of Education to share with you 
what we are doing to improve the education of Indian children 
and provide technical assistance to tribal schools.
    My name is Anne Dudro. I am the chief of staff for the 
Office of Elementary and Secondary Education, and I am pleased 
to be here today to speak on behalf of the department about the 
recent GAO report entitled, ``Bureau of Indian Education 
Schools (sic): Improving Interior's Assistance Would Help Some 
Tribal Groups Implement (sic) Academic Accountability 
Systems.''
    The Elementary and Secondary Education Act, as amended and 
reauthorized by No Child Left Behind of 2001 provides federal 
aid for disadvantaged students to state and local education 
agencies as well as the Bureau of Indian Education.
    Specifically, there are several requirements to which 
states and the BIE receiving Title I funds must adhere. They 
are: Develop academic content and student achievement 
standards, measure student proficiency in reading, math, and 
science with assessments aligned with these standards, and 
determine whether schools are making adequate yearly progress 
with the goal that all students will meet or exceed the state's 
proficient level of academic achievement in reading and 
mathematics by 2014.
    The ESEA requires the Secretary of the Interior to adopt a 
definition of AYP and use it to make accountability 
determinations for all BIE-funded schools.
    In 2005, after negotiated rulemaking, the Department of the 
Interior published a final rule establishing the definition of 
AYP for BIE-funded schools as the definition of AYP used by the 
state in which a BIE-funded school is located.
    However, in recognition of the sovereign nation of tribes, 
the SEA allows the governing body or school board of a BIE-
funded school to apply for a waiver from all or part of the 
state's definition of AYP and propose an alternative 
definition.
    Such alternatives are subject to the approval of the 
Secretaries of Interior and Education.
    In February of 2007, the two agencies signed an agreement 
to establish basic procedures for the review and approval of 
any alternative definitions of AYP submitted to the Interior by 
BIE-funded schools.
    Over the past year, the Department of Education has worked 
with BIE to provide technical assistance to three tribal groups 
that have requested alternatives to state AYP definitions, 
particularly in the form of developing new standards and 
assessments that include components of native culture.
    On August 23rd of 2007, GAO held an entrance conference 
with the department. At that time, the department had not been 
informed of any tribal requests for technical assistance 
related to alternative definitions.
    On September 6th of the same year, the department was 
subsequently informed of the request of the Miccosukee Tribe 
and a consortium of the Dakota Tribes, the OSEC. Upon receiving 
the formal request from Miccosukee and after follow-up 
conversations with the BIE, three staff persons from the 
department traveled to the Miccosukee Reservation in Florida on 
November 20th to provide technical assistance.
    Nine days later, the department staff participated in a 
similar meeting in Rapid City, South Dakota, to provide 
technical assistance to the OSEC.
    Upon the conclusion of these two meetings, the department 
contracted with an external expert, who is a former assessment 
director for a state educational agency, to provide additional 
technical assistance to both tribal groups.
    Shortly thereafter, on December 5th, the Department was 
also informed of a request from the Navajo Nation for technical 
assistance during a Title I monitoring visit to Albuquerque.
    On March 6th, the department staff and the contractor 
participated in the technical assistance meeting with the 
Navajo Tribe in New Mexico. The Navajo meeting focused on a 
conceptual framework for their assessment and accountability 
systems. We have received no additional communication regarding 
any subsequent meeting.
    The request from the OSEC and the Navajo Nations for 
alternatives to state definitions of adequate yearly progress 
include consideration of both an accountability component and a 
standards assessment component, while the request from the 
Miccosukee focuses solely on the development and implementation 
of new assessments.
    There are seven requirements as outlined in statute in 
regulation and further elaborated in the department's Standards 
and Assessment Peer Review Guide first published in April of 
2004 and then updated again in 2007.
    They are: One, to develop academic content standards that 
specify what all students are expected to know and demonstrate 
in reading, language arts, mathematics, and science.
    Two, develop academic achievement standards that are 
aligned with the state or tribe's academic content standards.
    Three, use a single assessment system for all students.
    Four, demonstrate that the assessments meet standards for 
technical quality, including that they are valid and reliable 
measures of student knowledge.
    Five, demonstrate that the assessments are aligned with the 
state or tribe's content standards.
    Six, provide for the inclusion of all students, including 
students with disabilities, in the state or tribe's assessment 
system.
    And seven, produce reports at the individual student's 
school, LEA, and SEA levels.
    After an assessment system is fully developed, it must be 
presented to the Department of Education for peer review. The 
peer review determines if the organization, whether a state or 
tribe, adheres to the standards for assessment development as 
outlined in the guidance. In this manner, the department 
ensures that tests are valid and reliable for the purposes for 
which they are designed.
    To conclude, the department has been working with our 
colleagues at the BIE to respond in a timely manner to the 
requests we have received for technical assistance from the 
tribes. Department staff, once made aware of any requests, has 
met with the tribes to discuss the issues and provide initial 
technical service.
    Furthermore, the department has provided for, and will 
continue to provide and pay for, additional technical 
assistance through a contractor to help the BIE and tribes.
    We take our responsibility to help ensure a high quality 
education for all Indian children very seriously. We also have 
a responsibility to guarantee that all schools that receive 
federal education funding abide by the applicable statutes and 
regulations.
    We are doing all that we can to support our colleagues at 
the BIE to meet the needs of the tribes, BIE-funded schools, 
and American Indian students.
    Thank you for the opportunity to appear here today, and I 
am happy to answer any of your questions.
    [The statement of Ms. Dudro follows:]

Prepared Statement of Anne Dudro, Chief of Staff, Office of Elementary 
         and Secondary Education, U.S. Department of Education

I. Introduction
    Thank you, Chairman Kildee, Ranking Member Castle, and all the 
members of the Subcommittee for inviting the U.S. Department of 
Education to share with you what we are doing to improve the education 
of Indian children and provide technical assistance to tribal schools. 
My name is Anne Dudro, I am the Chief of Staff for the Office of 
Elementary and Secondary Education, and I am pleased to be here today 
to speak on behalf of the Department about the recent Government 
Accountability Office (GAO) report entitled, Bureau of Indian Education 
Schools: Improving Interior's Assistance Would Help Some Tribal Groups 
Implement Academic Accountability Systems. (GAO-08-679)

II. Requirements for Assessments and Accountability under No Child Left 
        Behind
    The Elementary and Secondary Education Act (ESEA), as amended and 
reauthorized by the No Child Left Behind Act of 2001 (NCLB), authorizes 
Federal aid to State and local educational agencies, as well as the 
Bureau of Indian Education (BIE), for the education of disadvantaged 
students. As a condition for receiving grants under Title I, Part A of 
ESEA, States and the BIE are held accountable for the academic 
achievement of students in all public schools, including BIE-funded 
ones.
    The U.S. Department of Education (the Department) provides Title I, 
Part A, and other formula grant funds to the U.S. Department of the 
Interior (DOI) for its use and for distribution to tribally controlled 
schools and BIE-operated schools under the provisions of section 9204 
of the ESEA. Under section 9204(a)(2), the Department provides these 
funds to Interior under an Agreement entered into by both agencies 
consistent with the requirements of the programs.
    Specifically, Title I requires that states and the BIE develop 
academic content and student achievement standards; measure student 
proficiency in math, reading, and science with assessments aligned with 
these standards; and determine whether schools are making adequate 
yearly progress (AYP) toward meeting the goal that all students will 
meet or exceed the State's proficient level of academic achievement on 
the State reading and mathematics assessments by 2014.
    Section 1116(g)(1)(A) of the ESEA requires the Secretary of the 
Interior to adopt a definition of AYP and use it to make accountability 
determinations for Bureau of Indian Affairs\1\ (BIA)-funded schools. In 
2005, after a negotiated rulemaking involving Federal and tribal 
officials, the Department of the Interior published a final rule 
establishing the definition of AYP for BIE-funded schools as the 
definition of AYP used by the State in which a BIE-funded school is 
located.
---------------------------------------------------------------------------
    \1\ The Bureau of Indian Education (BIE), formerly the Office of 
Indian Education in the Bureau of Indian Affairs (BIA) was formed in 
late June 2006. The BIE is now a separate bureau from the BIA.
---------------------------------------------------------------------------
    However, in recognition of the sovereign nature of tribes, section 
1116(g)(1)(B) of the ESEA allows the tribal governing body or school 
board of a BIE-funded school to apply for a waiver from all or part of 
its State's definition of AYP and propose an alternative definition. 
Such alternatives are subject to the approval of the Secretaries of the 
Interior and Education. In addition, section 1111(m) of the ESEA 
identifies the various assessments that BIE-funded schools may use 
depending on who accredits those schools, and gives the Secretary of 
the Interior responsibility for approving the use of assessments where 
the school would not use the assessments of the state in which the 
school is located.
    In February of 2007, the Departments of the Interior and Education 
signed an agreement to establish basic procedures for review and 
approval of any alternative definitions of AYP that a tribal governing 
body or school board of a school funded by the BIE might submit to DOI. 
Provision for such procedures between the two agencies is governed by 
section 1116(g)(1)(B) of the ESEA and by final DOI regulations in 25 
CFR Part 30.
    When a tribal governing body or school board requests technical 
assistance in developing an alternative definition of AYP, the BIE is 
responsible for providing that technical assistance. The interagency 
agreement calls for BIE to notify the Department's Office of Elementary 
and Secondary Education, which oversees the accountability provisions 
under Title I of the ESEA, of all requests by tribal governing bodies 
or school boards for technical assistance. Also under the agreement, 
the BIE is to request guidance as needed in providing technical 
assistance.

III. Requests for Alternate Definitions of AYP
    Over the past year, the Department has worked with the BIE to 
provide technical assistance to three tribal groups that have requested 
alternatives to State AYP definitions, particularly in the form of 
developing new standards and assessments that include components of 
native culture.
    On August 23, 2007, GAO held an Entrance Conference with the 
Department. At that time, the Department had not been informed of any 
tribal requests for technical assistance related to alternative 
definitions. On September 5, 2007, the BIE sent an email to the 
Department requesting a teleconference regarding assessment issues, 
which ED convened for the next day. During this teleconference, the BIE 
informed the Department of requests BIE had received from the 
Miccosukee Tribe and from a consortium of the Dakota tribes, the Oceti 
Sakowin Education Consortium (OSEC). Also during this teleconference, 
the Department asked BIE to forward the formal requests from the 
Miccosukee and OSEC. Upon receiving the request from the Miccosukee on 
September 25, and after follow-up conversations with BIE, three staff 
persons from the Department traveled to the Miccosukee reservation in 
Florida on November 20 to provide technical assistance. On November 29 
of that year Department staff participated in a similar meeting in 
Rapid City, South Dakota to provide technical assistance to the OSEC. 
Upon the conclusion of these two meetings, the Department contracted 
with an external expert, who is a former assessment director for a 
State educational agency, to provide technical assistance to both 
tribal groups.
    On December 5, 2007, the BIE informed Department staff of a request 
BIE had received from the Navajo Nation for technical assistance, 
during a Title I monitoring review in Albuquerque. At that meeting, the 
BIE provided the Department with a copy of the Navajo Nation request 
and a copy of BIE's response to the Navajo request proposing a meeting 
between the three parties. According to the BIE, the Navajo Tribe was 
delayed in responding, but on March 6, 2008, Department staff and a 
contractor participated in a technical assistance meeting with the 
Navajo Tribe in Albuquerque. The Navajo meeting focused on a conceptual 
framework for their assessment and accountability systems, and we have 
received no communication regarding any subsequent meetings.

IV. Requirements for Alternatives to State Definitions of AYP
    The requests from the OSEC and Navajo Nations for alternatives to 
State definitions of adequate yearly progress include consideration of 
both an accountability component and a standards and assessment 
component, while the request from the Miccosukee focuses solely on the 
development and implementation of new assessments. The accountability 
component is involved when different elements, such as the use of an 
oral language proficiency assessment, are considered when determining 
if a school has made AYP. The standards and assessment component 
involves developing an assessment other than that provided by a State 
(e.g, a more culturally appropriate assessment than that used by the 
State).
    While accountability and assessment are related activities, the 
approval process for these various requests is different. 
Accountability relates to the annual determination of whether a school 
or local educational agency is making AYP; it depends upon the 
assessment results as well as other factors such as the assessment 
participation rate, the attendance or graduation rates, and, in the 
request of OSEC, oral language proficiency. The ESEA leaves the 
authority for the determination of proficiency and adequate yearly 
progress to the State educational agencies or other appropriate entity 
so long as the certain statutory requirements are met. While it is 
reasonable for a tribe to desire to develop its own accountability 
system, any request by a BIE-funded school to deviate from the State's 
assessments or process to calculate AYP would need to be submitted by 
the tribe to the BIE. These tribal amendments would need to be 
reflected in the BIE's accountability plan, and submitted for review 
and approval by ED. This is the same procedure used for all other 
States' accountability plans. The BIE would need to note in their 
accountability plan that certain amendments to AYP definitions would 
apply only to the tribal schools requesting the alternative definition.
    The development and implementation of new standards and assessments 
must meet the statutory and regulatory requirements of Title I which 
are guided by the Department's Standards and Assessments Peer Review 
Guidance, first published in April 2004, and updated in December of 
2007. There are seven requirements outlined in statute and regulations 
and further elaborated in the peer review guidance. Under Title I, 
States, or in this case tribes, must: (1) develop academic content 
standards that specify what all students are expected to know and be 
able to do in reading/language arts, mathematics, and science; (2) 
develop academic achievement standards that are aligned with the State 
or tribe's academic content standards; (3) use a single assessment 
system for all students; (4) demonstrate that the assessments meet 
standards for technical quality, including that they are valid and 
reliable measures of student knowledge (5) demonstrate that the 
assessments are aligned with the State or tribe's content standards; 
(6) provide for the inclusion of all students, including students with 
disabilities, in the State or tribe's assessment system; and (7) 
produce reports at the individual student, school, LEA, and SEA levels.
    When the assessment system is fully developed it must be presented 
to the Department for a Peer review. The Peer review process does not 
involve looking at individual content standards or the format or 
content of the tests. It is focused on whether the organization, 
whether it is a state or a tribe, followed certain processes for 
assessment development as outlined in the Department's Peer Review 
Guidance to ensure the tests are valid and reliable for the purposes 
for which they are designed.

V. Conclusion
    In conclusion, the Department has been working with our colleagues 
at the BIE to respond in a timely manner to the requests we have 
received for technical assistance from the tribes. Department staff, 
once made aware of any requests, have met with the tribes to discuss 
the issues and provide initial technical assistance and the Department 
has provided and paid for, and will continue to provide and pay for, 
continued technical assistance through a contractor who is an expert in 
State standards and assessment systems. We have a Federal 
responsibility that all schools that receive Federal education funding 
abide by the applicable statute and regulations and we are doing all we 
can to support our colleagues at the BIE to meet the needs of the 
tribes and BIE-funded schools.
    Thank you for the opportunity to appear before you today. I will be 
happy to answer any questions you may have.
                                 ______
                                 
    Chairman Kildee. Thank you.
    Mr. Hamilton?

   STATEMENT OF THEODORE HAMILTON, EXECUTIVE DIRECTOR, OCETI 
                  SAKOWIN EDUCATION CONSORTIUM

    Mr. Hamilton. Thank you, Chairman Kildee, Ranking Member 
Castle, members of the committee for inviting me to testify 
today.
    I want to thank Representative Herseth Sandlin for the 
introduction--it was quite nice--and for her leadership both 
here in Washington, D.C. on behalf of our state and in South 
Dakota.
    I am the executive director of the Oceti Sakowin Education 
Consortium, and my name is Ted Hamilton.
    The consortium is made up of, currently, 14 tribal schools, 
four tribal colleges in South and North Dakota, and provides a 
wide range of services, as Representative Herseth Sandlin 
explained.
    In the past 8 years, OSEC staff have provided services to 
schools at the request of school superintendents and principals 
through a cooperative-like structure. Unlike a traditional 
educational cooperative model, OSEC maintains a school needs-
based model that creates annually-contracted projects 
specifically developed for each school's needs.
    This process provides a clear picture of the needs of the 
schools and our higher education process.
    I want to stress that OSEC is not an advocacy or 
representative organization. The schools that are our members 
own us, and we believe that our school boards and the tribal 
education departments should be heard in policy-level 
discussions.
    We do, as an organization, provide technical support as 
requested relating to policy-level decisions.
    I have been asked today to discuss the work of our 
organization related to the creation of a definition of 
adequate yearly progress for some of our schools and our 
reaction to the GAO study. And I have also been asked to make 
some comments on some other issues related to our membership.
    I handed in a fairly thick written testimony, and I will 
refer to that as I go through this.
    Related to No Child Left Behind and the GAO report, the GAO 
report is a good case to point out some more general 
difficulties our schools are having with the BIE system.
    When NCLB was authorized, there was a process defined in 
the Act called ``negotiated rulemaking.'' And in negotiated 
rulemaking, members of the committee were assured that the 
tribes would be provided support, both technical and fiscal, in 
development of alternative assessments and standards.
    As an interim step, schools would follow the accountability 
workbook of the states in which they reside. Two of the members 
of the negotiated rulemaking committee, Dr. Roger Bordeaux of 
Tiospa Zina Tribal School, and Deb Bordeaux of Loneman School, 
argued against the use of state workbooks and their associated 
standards and finally reluctantly agreed to the state standards 
and assessments provisions.
    When they came home in 2002, we had a meeting, and eight of 
the schools decided they would pursue an alternative definition 
by pooling some resources. OSEC was asked to manage the process 
and to act as a single point of contact with the Bureau in the 
project.
    I am attaching two of my testimonies and an appendix of the 
timeline of our work. So we have been doing this now since the 
last 4 years. It has been going on for a while.
    Our first attempts to get this worked on, we were told 
repeatedly by the Bureau that we could not apply as a group of 
schools for an alternative definition. We were told it would be 
too expensive and that there was no money for this type of 
work.
    While we were required to have our school boards pass 
multiple resolutions agreeing to work together through the OSEC 
organizational structure we generally did not receive any 
correspondence from the Bureau other than letters telling us 
that they did not have to help us.
    In reading the No Child Left Behind Act, tribes and tribal 
schools that wish to waive the state definitions for their own 
definition are required to submit an alternative definition 
within 60 days of alerting the Secretary of the Interior of 
their intent to waive NCLB requirements.
    The Secretary of the Interior is then required to give a 
written response either supporting or denying the waiver. This 
allows the tribe or tribes to begin a negotiation process with 
Interior.
    After four submissions, beginning in 2005, the OSEC schools 
finally received their first written response to their proposed 
definition in August of 2008. A significant aspect of 
developing an alternative definition is the creation of 
educational standards and assessment tools.
    At the core of our concern about using state AYP 
definitions is a lack of culturally-appropriate content 
standards. On page five of the testimony, I quote the U.S. Code 
of Federal Regulations which requires the use of content 
standards--or that content standards used in schools be 
culturally appropriate and that the primary native language of 
the school population be assessed annually.
    The state of South Dakota doesn't develop its educational 
standards to meet those regulations and is not bound by those 
regulations.
    Our organization has repeatedly asked for funding to 
develop assessment instructions for the standards we have 
created. We met with BIE and DOE officials in late November of 
2007. We were told funding would be available for assessment 
development.
    We were told to conduct a bidding process with companies 
for assessment development, create a plan, and submit that 
plan.
    That was the third time we had completed that process. We 
also submitted our third accountability workbook for approval 
at that time. To help us, we were assigned a consultant from 
the Department of Education that was referenced before, Mr. 
J.P. Boudain. Mr. Boudain helped us review the bids we received 
and helped us create a final budget that we submitted on March 
4th of 2008.
    The long and the short of it was we found out today, 
actually--Mr. Holder told me today that the Bureau was going to 
provide us some resources. For the Native American portion of 
this, we haven't received any dollars for the rest of the 
assessment.
    In the testimony, I go on to talk about the Bureau's work 
with us and the number of problems we have. On page eight, we 
talk about some problems that we have had with determining 
adequate yearly progress, telling parents if their schools are 
succeeding or not.
    We have yet to have a year where we have met the deadline 
to let parents know that their schools are succeeding or not. 
And this year, we will once again, miss that deadline if we 
follow the Bureau's plan.
    We also have real questions about the Bureau acting as an 
SEA for our schools. A state education agency should be--in our 
reading of the Indian Education Act--should be in the role of 
the Indian tribal-controlled education departments. It should 
not be--if we are going to continue to maintain government-to-
government relationships--between the Bureau of Indian 
Education and the Department of Education.
    And we feel that it is a violation of the government-to-
government relationship to have the Bureau acting as an SEA for 
the tribes.
    In conclusion, because I see my little red light here, I 
want to say one thing, and it is a message from two people. 
Once is Lionel Bordeaux, the president of Sinte Gleska 
University, who you, Mr. Kildee, know. And the other one is 
from my wife who is Ardis Iron Cloud. And she is a full-blood 
member of the Oglala Sioux Tribe.
    Lionel said to me to tell your committee that every 40 
years, we talk about the Bureau growing in strength, growing in 
numbers, and the federal government continuing to tell tribes 
what to do. And every 40 years, testimony is given and there 
are rooms--and as an archivist for the Oglala Sioux Tribe, 
which was one of my jobs I went to one of those rooms and saw 
the bound papers going back over a hundred years of testimony 
to congressional committees about education.
    And we keep seeing the Bureau, once again, dictating to the 
tribes what needs to happen instead of the tribes having 
control over the their education. So we are hoping that this 
year, this won't happen and we won't be back here 40 years from 
now.
    And from my wife, I am running for election in South Dakota 
on our state House of Representatives. And one of my platform 
issues is that currently in South Dakota, the Indian liaison 
for tribes is housed in the department that deals with tourism. 
And I noticed that in the House of Representatives, Native 
American issues are handled in the Natural Resources Committee.
    Now, my wife told me native people are not natural 
resources, and they are not tourist subjects. I have a son who 
is studying physics at the South Dakota School of Mines and 
Technology. And while he talks about getting his degree, he 
talks about coming home and doing for his tribe, taking the 
knowledge that he has learned--and benefitting from the help 
from the state of South Dakota--but strengthening the tribe.
    And I am hoping that this work today and answering any 
questions that you on the committee have might help so that we 
are not here 40 years from now and that the tribes can continue 
to have a voice and be heard in this arena.
    I thank you very much for your time today.
    [The statement of Mr. Hamilton may be accessed at the 
following Internet address:]

   http://www.osdlc.org/AYP/documents/2008-09-09-TheodoreHamilton.pdf

                                 ______
                                 
    Chairman Kildee. Thank you very much, Mr. Hamilton.
    I have been in Congress 32 years. I am not sure when those 
40 years began or ended, but maybe I will see the full 40 
years, God and the voters willing, of course, on that.
    You know, we are dealing here with something that is simple 
and yet complex. We clearly--and I never leave home without 
it--I carry the Constitution with me. And this Constitution 
does not grant sovereignty to the Indian tribes. It recognizes 
sovereignty.
    It is a real sovereignty. Indian tribes are not the Knights 
of Columbus, which I belong to. They are not the VFW, which my 
son belongs to. They are sovereign nations, and they are not 
granted that sovereignty. It is a retained sovereignty.
    And it is recognized in the Constitution in two different 
places where it talks about all treaties entered into are the 
supreme law of the land.
    Article 1, Section 8 of the Constitution says the Congress 
shall have power to regulate commerce with foreign nations and 
among the several states and with the Indian tribes.
    It recognizes all three as sovereigns: foreign nations, the 
several states. We have 50 sovereign states making up the 
United States. It doesn't grant France or Germany or the 
Russian Federation its sovereignty. It says that we recognize 
that sovereignty.
    So it is a real sovereignty. And that might create some 
complications, but it is real.
    And when we have three sovereignties--we also--most of us 
up here have two citizenships. Probably most of you down at the 
witness table have three real citizenships.
    I am a citizen of the United States. I am very proud of 
that citizenship. I am a citizen of Michigan, and I have 
obligations, responsibilities, and rights that flow from both 
those citizenships. And that is it. I have two citizenships.
    My Chippewa and my Pottawatomi, my Indian tribes, those 
members, those citizens, have three citizenships. And they have 
rights and responsibilities that flow from all three of those 
citizenships. We know, for example, the Indians have proven 
their U.S. citizenship time and time again because a larger 
percentage of Native Americans have served in our armed forces 
than any other group.
    They are citizens, and good citizens of the state of 
Michigan and contribute a great deal, by the way, to the state 
treasury. And then they are citizens of their sovereign tribes.
    So those are the realities that the law has to work around. 
And whenever we enact a law, we cannot ignore the Constitution. 
And that is why, very often, we get into some of these contacts 
between these three sovereignties. And that might create some 
difficulties, but they are difficulties that are based upon the 
Constitution itself.
    So I appreciate all of you struggling with this, defending 
your sovereignty, and recognizing the sovereignty when you deal 
with the Indian tribes. It is extremely important.
    And that is true on the state level. You know, most--I 
think all the schools really pretty well accept the AYP program 
of the states. But the state, when it has these Indian schools, 
is required to sit down in good faith and talk to the Indian 
schools, the Indian leaders in good faith and try to work out 
what standards and testing the AYP will be on the state level. 
That is a requirement.
    And then when the Secretary of the Interior is looking for 
alternatives to that, he or she has the obligation to sit down, 
sovereign to sovereign, one not more equal than the others--you 
can't be more equal. You are either equal or not equal. Sit 
down and discuss and try to find some common agreement. And 
that takes patience.
    When we negotiate with friends, that takes patience. When 
we negotiate with the Russian Federation, that takes patience. 
But I think we have to recognize that when we sit down with 
that person at the other side of the table, it is not ``Oh 
gosh, we've got more work to do, these Indians want 
something.'' No, these sovereigns want something.
    And that sovereignty is guaranteed by the U.S. 
Constitution. And I think that is the attitude that we have to 
take in. And then, perhaps, we can make some progress. And it 
won't always be easy when you have to recognize the other side 
has an equal voice at that table, and you have to reach 
agreement. And not an imposed agreement. When you get a 
memorandum of understanding, it can't be something that is 
handed and said this is our understanding. It is a memorandum 
of understanding based upon mutual agreement. And that is very 
important.
    So the Indians have the obligation to protect their 
sovereignty. Those who are not representing the Indian tribes 
directly have the obligation to recognize that and address the 
matter in that fashion.
    Let me ask this, as my sermon today. I especially try--when 
at seminaries, I do preach a bit at times. But I agree with 
that very strongly.
    Let me just start--I will throw the question out. I will 
throw it out to the GAO first.
    In general, what would you say is the most significant 
obstacle in tribal-federal and tribal-state relations?
    Any of you may----
    Ms. Ashby. All right. From the work we did with regard to 
tribal-state--and I will take that first because that is a 
little bit easier--it is negotiation of the memorandums of 
understanding, the MOUs. There are MOUs currently with 11 of 
the 23 states in which the BIE schools are located.
    For the other 12 states, those MOUs have not been developed 
to date except for California. The tribal schools have had 
access to the assessments and standards and the scoring in all 
the states. But without an agreement, some type of contract, 
there is no guarantee that they will continue to have access or 
they will continue to have access under the same conditions.
    So it puts the tribal schools at risk because if they don't 
have access to assessments, of course, that is the whole basis 
for the accountability system under the No Child Left Behind 
Act.
    California, of course, has not granted access because of 
its concern about security. And that needs to be worked out, 
and that has not been worked out, as I understand it, to date.
    So that is a major problem.
    With regard to the tribal groups and the BIE, there 
certainly was a rocky start in terms of providing assistance 
and responding to requests for assistance or just requests to, 
you know, maybe brainstorm sometime. Generally, in the early 
years, it wasn't necessarily an official question for 
assistance as much as the tribal groups needing to know what 
they would have to do to get assistance to carry out their 
waivers or what they might do in terms of alternative 
assessments.
    And they, apparently, did not get the degree of assistance 
and response that they needed. Things have improved, as we said 
in our statement and in the report.
    Beginning last fall and continuing into this year, there 
have been meetings between BIE and Education and the three 
tribal groups who have officially sought waivers or sought to 
begin the process for seeking waivers.
    So things seem to be on a better footing. But as you said 
in your statement, what is needed is more communication, better 
communication, continued responsiveness, and sincerity on all 
sides so that obstacles can be addressed and agreements can be 
worked out.
    Chairman Kildee. Thank you very much.
    Dr. Gilbert, do you have a comment?
    Dr. Gilbert. Thank you, Mr. Chairman. I do have a comment, 
and that has to do with assessments.
    One of the main reasons why we are here today, again, like 
you said, is to address those particular issues that deal with 
our children and our educational system.
    Our concern has always been with the idea of state and 
tribal relationships. Everywhere from assessment and 
accountability, AYP, and so forth.
    But one of the things that we struggle with is the idea of 
assessment. One test doesn't fit all. And when you talk about 
culturally and linguistically inappropriate exams for our 
children, that is one of the reasons why our children, perhaps, 
aren't doing well on these exams.
    Something that we need to take a look at, not only that, 
but also to work closely with our state education agencies to 
collaborate with one another to come up with some other types 
of assessment techniques besides just one test. For example, 
exams that may be portfolio assessments and some others that 
provide that avenue of how we can better assess our children 
and the growth of our children.
    Thank you.
    Chairman Kildee. Mr. Holder?
    Mr. Holder. Needless to say, managing 23 accountability 
systems is no easy task for Bureau of Indian Education. Also, 
some of the resistance that we have encountered with the states 
as far as developing the MOUs to ensure our access to their 
accountability systems and to be able to administer the tests 
and receive the scores has been a challenge.
    I believe that in the 20 years that I have been around 
Indian education, there has been significant discussion on 
developing tribal standards or Indian standards for our 
students. No Child Left Behind is the statutory framework that 
the BIE follows as far as managing programs, as far as state 
accountability is concerned. And there is a provision for 
tribes to request an alternate AYP definition that is contained 
in the statute.
    We follow the statute and support the statute. That is our 
position. We partner with the Department of Education to 
achieve that end. And I have pursued this, and very 
aggressively, since I was placed back in my position as the 
chief of the division.
    And we will continue to do so. Our ultimate goal--and I 
have expressed this to Mr. Hamilton--is to get an assessment on 
the ground, to be able to move forward with this. We are 
concerned, though, that we are developing a prototype where we 
are venturing into unknown territory. So we want to make sure, 
to the best of our ability, that we are following the statute, 
that we are doing things in the best interest of Indian 
students. That is why we are partnering with the Department of 
Education to provide this technical assistance.
    And we will continue to do so in the future.
    Chairman Kildee. Thank you.
    Ms. Dudro?
    Ms. Dudro. The only thing I would add is that, certainly, 
our agency recognizes the authority and the right of the tribes 
to ask for an additional alternative AYP definition. But we 
acknowledge that development of a standards and assessments 
system is not an easy process.
    And we still have states, very large states such as 
California, that are still struggling with developing their own 
system.
    We have provided, and will continue to provide, TA with our 
staff and our consultants, but we do look to our colleagues at 
BIE to work with the tribes to help expedite this process.
    As noted in the GAO report, this process can be rather 
lengthy, taking anywhere from 1 to 3 years. And we want to do 
everything in our ability to follow what is in the statute and 
provide BIE schools with the technical assistance they need in 
order to develop their own definition of AYP.
    Chairman Kildee. Mr. Hamilton?
    Mr. Hamilton. Mr. Kildee, I was--of the personal beliefs 
and spirits I think you were channeling some people from our 
meetings in your discussion prior to this because a lot of the 
things you said about sovereignty are the things that we talk 
about on a daily basis where we live.
    And when you asked the question, what struck me was the 
relationship between the Bureau of Indian Education and the 
tribal education departments and the tribal schools.
    And what we are seeing increasingly is the tail wagging the 
dog. In Indian education, we fund our schools through ISEP 
money, primarily. And No Child Left Behind is kind of 18 to 20 
percent of our budget. And yet it is taking up the bulk of our 
time.
    And what is happening is we are seeing that the Bureau of 
Indian Education is using it to increase its growing 
infrastructure, growing its bureaucracy and growing an 
oversight that is pretty much unnecessary.
    And it is because of that idea, the issue is what is that 
level of respect? Are we respecting the government-to 
government relationship between the tribal schools, the tribal 
counsels, and the federal government?
    We have taken to court and won in court issues around the 
MOUs. When the Bureau came to us and said we are restructuring, 
they put into a consultation--what they called a consultation--
a package that said you are going to restructure the Bureau, 
and you are going to have this MOU. And we took it to court and 
the judge said ``you didn't even do proper consultation.''
    And yet the Bureau moves forward, referring to themselves. 
And it is in the written testimony here about being the 51st 
state.
    And one of the things that is deeply concerning to me is 
this concept that we can treat Native Americans as the 51st 
state, as we have heard in the past, this concept of Pan-
Indians, that all Native American tribes are the same. As you 
said, each tribe and each treaty defines sovereignty.
    The challenge to me is that we have hundreds of 
sovereignties out there. And that the sovereignty that my son 
and my wife have through their relationship with the Oglala 
Sioux Tribe is different than the sovereignty that one of my 
nephews has because he is a member of the Navajo Tribe.
    And those are two completely different sovereignties. It is 
not that he is Native American. It is that Arlo is a Navajo. 
And when he talks, he talks about growing up in a hogan with 
his grandparents and that they eat sheep there.
    We don't in South Dakota. We eat beef. And that is a plug 
for the beef industry.
    But there are differences. And I think this--as you say is 
a simple issue, but it is a critical issue as defining the 
starting point.
    Where do we start with educating our children and 
maintaining a culture and maintaining a community and 
maintaining a way of life? And if everybody is treated the 
same, then we have lost the battle to begin with. There is 
nothing so unequal as treating unequals equally. And each of 
the tribes is its own sovereign nation.
    And when we look at what has gone on here, what we are 
seeing is a homogenization of Native American peoples, and this 
issue that we have is just the tip of the iceberg. We can talk 
about meeting this requirement or meeting that requirement. But 
at the core of it is how have you assured not only this 
subcommittee but the government itself--assured that each tribe 
has a way of saying this is what is important for us, for our 
children to learn.
    Chairman Kildee. Thank you very much.
    I now yield generous time to the ranking member of the 
committee, the Governor Castle.
    Mr. Castle. Well, thank you very much, Mr. Chairman. And I 
don't believe that I have the knowledge of the chairman in 
terms of all these issues. So some of my questions are more 
informational in developing what is the issue and the problem 
as opposed to answers at this point.
    And let me start with you, Mr. Holder, and perhaps, Dr. 
Gilbert could help with this and others.
    You stated in your written testimony that less than 10 
percent of all American Indian children in the United States 
attend BIE-funded schools. And I think it is about 44,000 
total.
    My question is why is that. And I think I know the answer 
to these things. I am not sure. I would like to hear from you.
    Why is that? I assume it is disbursement of the population, 
people not living in areas where the schools are available. But 
perhaps there is a matter of choosing which schools one wants 
to go to, too.
    And I was just curious as to what the explanation for that 
percentage is.
    Mr. Holder. The Bureau of Indian Affairs Schools were put 
in place historically on reservations, and I believe that off-
reservation boarding programs were also established in the 
early part of the century, some dating back to the 1870s.
    As time evolved and communities began to grow in these 
particular areas, the Bureau schools continued to provide 
educational services to those populations. However, public 
schools have also been established on the reservations. And it 
is a matter of choice for the students as to what school that 
they choose to attend, the Bureau-operated school or the public 
school.
    We operate and maintain as close communication as we can 
with the public schools, also, because we have mobility of 
students between those schools. But the answer to your question 
actually lies in the history of the development of Bureau 
schools and educational systems on reservations and adjacent 
Indian communities.
    Mr. Castle. What might be the reason--and this is just 
conjecture, I understand that--but what might be the reason 
that a child might choose a public school versus a BIE school? 
Might the parents be interested in the cultural development 
they might get at the BIE school, or is it just a question of 
proximity for the most part? What is the motivating force to 
keep these going as they are?
    Mr. Holder. I believe there is always a diversity of 
reasons for students to choose to attend a particular school or 
for parents to choose to send their child to that particular 
school.
    In some cases, it is proximity, such as on Pine Ridge, you 
have the Pine Ridge School that is operated by the Bureau of 
Indian education. That is a K through 12 program.
    Most of the schools--and correct me if I am wrong, Ted, I 
can't pull it off the top of my head--out in the districts are 
K-8 schools or K-6 schools. So when the students complete at 
those schools, they have very limited choices--either Little 
Wound School in Kyle or Pine Ridge, which are about 60 miles 
apart.
    In some cases, they are bussed off reservation to a small 
community called Oreck. So it depends on proximity to the 
school, the availability of space and other factors involved in 
that. I believe that more and more, parents and students are 
choosing to attend schools that provide a substantial cultural 
program and that integrate culture and language into the 
curriculum.
    Mr. Castle. Yes, sir. Mr. Hamilton?
    Mr. Hamilton. If I may add something, I have raised nine 
kids on the Pine Ridge Indian Reservation. My wife and I have 
nine. So we have had children go to Bureau-operated schools, 
Bureau-funded schools, state schools, and parochial schools, 
which are our choices on that reservation.
    The state schools--my wife teaches at one of them--spends 
about $4,000 more per child per year than the Bureau-funded 
schools do. So there is an issue of resources.
    I walk into my wife's classroom, every child has a 
computer. Every child has a music program accessible to them. 
There is a nice gymnasium. There is quite a nice set-up there, 
they are brand new buildings.
    This is not the way it is at the Bureau-funded schools.
    My oldest children have moved to Rapid City, and their 
children attend a public school because of the unemployment 
realities of Pine Ridge. They moved off reservation, and when 
we talk about the large number of children who go to public 
schools, many of them are there for economic reasons.
    Mom and dad have to have a job, and they have to support 
their families. And like any family, they go where the jobs 
are.
    It is--I don't know--we don't know if they have the right 
people here, but I know from the work that we do with the South 
Dakota GEAR UP Grant, because that is one of the projects that 
we run, that over 60 percent of the native children in the 
public school systems drop out; that the success rate with 
native children in South Dakota in the public schools is just 
marginally better than in the BIE-funded and operated schools.
    There is not much difference statistically.
    We can play a little bit with numbers, but what it comes 
down to is that native kids are not doing well in the public 
schools. Lots of times they are there because that is where we 
can find work, and that is where our families can find work.
    I spent a lot of time in Rapid City, South Dakota, with my 
grandchildren, and I met with the superintendent of schools 
there. And I said I am concerned because my grandson has a 5 
percent chance of graduating from high school in Rapid City 
Schools right now because, in Rapid City, there is a 95 percent 
drop-out rate amongst native boys.
    Mr. Castle. I am looking for a brief answer on this. I was 
trying to ask the question of Ms. Ashby, if I can get to it. 
But just as a follow up, you know, we have Nanticoke Indians in 
Delaware, and they all speak English as well or better than I 
do--all of you do as well. And my question is: Is English as a 
second language an issue in any of the tribal circumstances we 
have in this country today?
    Mr. Holder. I would like to respond to that simply because 
we have carried out a reading-first program that deals 
primarily with the development of language vocabulary and, 
ultimately, reading skills. What we have experienced is that 
the tribal students that speak the tribal language as a first 
language have a much easier time gaining the skills to read in 
English.
    That something that confounds the process is the third 
language that often develops in tribal communities or ethnic 
communities where the tribal or ethnic language isn't spoken as 
a pure language.
    So there is that interference with the progression of the 
process associated with reading simply because decoding 
phonemic awareness and phonics are pretty much distorted by 
that spoken language. So the--establishing the tribal 
language--we have one school, Lukachukai, in Arizona, that 
initiated an early childhood immersion project back in 2002.
    The first cohort of students were assessed by the Arizona 
State Assessment last year, and the school made adequate yearly 
progress.
    So we see the benefits of establishing a pure tribal 
dialect and in building English upon that dialect.
    Mr. Castle. Thank you.
    Dr. Gilbert?
    Dr. Gilbert. If I may, immersion programs on Indian 
reservations have become very successful. And one of the issues 
that we are concerned about is not only language but also 
culture as well.
    So we believe that if we can start a child at a very young 
age in an immersion program where they are speaking and 
learning about their language and their culture from K grade to 
fourth grade, for example, and they are immersed in their 
culture and so forth, then by the time they graduate from high 
school, not only will they be bilingual but they were also--in 
some cases, may be trilingual--but also they will achieve 
academic performance from K to twelfth grade because based upon 
Mr. Holder's comments, it is correct in saying that results of 
exams of children who are in immersion programs performed 
better than children who are not in immersion programs.
    So we know that for a fact.
    And the other issue I would like to just briefly mention is 
that if a child learns their first language at a very young 
age, then that transition into learning a second language comes 
much easier for them because the skills that they use in 
learning their first language, they will pick up the English 
language very quickly or another language, whatever language 
that may be.
    So thank you.
    Mr. Castle. Just briefly. I know my time is up. I wanted to 
ask Ms. Ashby sort of a complicated question. I will try to 
simplify.
    And you stated in your testimony that only a third of the 
BIE schools actually make AYP. In your--did that study or in 
your studies, have you identified what schools that have made 
AYP, BIE schools that made AYP, have done differently or what 
specific efforts they have made to reach the AYP?
    In other words, is there some way we can help by defining 
that?
    Ms. Ashby. No, I am sorry. We have not done that. That 
certainly would be an interesting study and a useful one, I 
think. But that is not something that is in the scope of the 
work we did.
    Mr. Castle. I mean, just as a final comment, I know, in 
Delaware, it is very interesting for me to go from school to 
school. And I find that some schools are really focused on what 
it is that they can do. And their neighbor school, maybe five 
miles away has not, and they haven't done anywhere near as 
well.
    And the schools that have, have done remarkably well. It is 
a worthwhile subject matter, I think.
    I yield back, Mr. Chairman.
    Chairman Kildee. You asked a very good question. We used to 
have what is called the National Diffusion Network where you 
could find out why certain schools were succeeding.
    It would be very interesting if we looked at that one-third 
who were reaching AYP and see what we can learn from them that 
might be transferrable to the other schools. So, perhaps, that 
is something we can all explore.
    Now, it is my pleasure to call upon the gentlelady from 
California, Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman. Thank you for the 
interesting hearing and interesting witnesses.
    Education is the future of our country. It is the future of 
every single child, every student. And certainly, it is the 
future of sovereign Indian nations.
    And, you know, Indian education was here before AYP and No 
Child Left Behind. So I am wondering--and I feel certain that 
you have some statistics or at least you have a general sense 
of the difference between graduation rates between BIE schools 
and public schools or parochial schools that you know what 
percentage of BIE-educated kids go to community colleges or 4-
year colleges.
    And what are their careers when they are through with the 
school system? And how does it compare to the public education 
system because it is all about what is best for those students.
    So would anybody be willing to talk to me about that? And 
it is before AYP. It is bigger than that, I think.
    So, Ms. Ashby, do you have any statistics on this?
    Ms. Ashby. I don't have any statistics on the top of my 
head. I do know that, in general, students in BIE-funded 
schools do poorly. Most things you would like at in terms of 
graduation rates, attendance rates, test scores. So there is 
definitely a problem.
    But I will say that in doing work for the report we issued 
in June, as well as work on other reports we have issued 
involving Indian students and work that is currently ongoing, I 
am making site visits across the country. I have met well-
educated Indian adults in all professions that are highly 
capable and they are like people anywhere else.
    They go to school. Some go to college at the tribal 
colleges. And going back into the 1990s, I did some work on 
tribal colleges.
    But many go to the same schools that everyone else goes to. 
They don't all going to tribal schools by any means. And they 
are accomplished as anybody else.
    Ms. Woolsey. Well, and isn't the goal to be able to be an 
adult and raise their children in--so that their children have 
a future also? How are we doing there?
    Ms. Ashby. But--excuse me. Having said that, I don't want 
to leave the impression that there aren't issues. There are 
lots of issues.
    And as with every ethnicity, there are people who do well 
and lots of people who don't do well. And our responsibility of 
the nation is to help those who need a helping hand. And with 
regard to Native Americans, Indians, that certainly is the 
case.
    Ms. Woolsey. Mr. Hamilton?
    Mr. Hamilton. If I can get your e-mail address or your 
aide's, I can send you a study we are just finishing up that 
looks at test scores over the last 3 years between the tribal 
schools in South Dakota. It will only give you South Dakota. It 
won't give you the nation.
    But what we found is that, in general, in the public 
schools, public schools that are adjacent or on reservations, 
do just about the same as--in terms of test scores--as the BIE-
funded schools. BIE-operated schools don't do quite as well. It 
is kind of harder to find their data. But we have been able to 
pull it up lately.
    The Bureau has started to add--to put stuff on their Web 
site so we can start looking at this stuff finally.
    We are seeing a growth in native students going to college. 
The Tribally-Controlled-College Act has had a huge impact on 
the number of native people on the reservations going to 
college. We are not seeing that in the public sector.
    If you go to South Dakota, we have, across our entire 
state, about 12 to 14 percent of our population are natives. 
And that holds true for the student population. Actually, the 
student population is slightly larger because we have more 
native kids than non-native kids in the state.
    Well, that is not quite true. We have about 18 percent in 
percentages.
    We only had 125 incoming freshman in the board of regents 
last year, which is about 1 percent of the population.
    The bulk of native students go to tribal colleges out of 
high school. So there is a--we have been using the South Dakota 
GEAR UP Grants, monies--we run a program, actually, or a 
consortium in partnership with our state where we--this year, 
we have 380 students. And we have, of the kids coming in, after 
4 years in that program, we have a 92 percent placement rate 
into college.
    It has been a very successful program, but it is very 
difficult to maintain the funding for it because we have to 
continually go and ask funding agents how do we keep this thing 
going.
    And I know we have approached the Bureau to see if we can 
create a stable funding for this every year because it is a 
really good program.
    Ms. Woolsey. Thank you. Mr. Chairman, can Ms. Dudro----
    Okay. Thank you.
    Ms. Dudro. Good morning. Certainly, the one thing that I 
would add on behalf of the Department, I cannot give you 
statistics off the top of my head as well, but I could 
certainly supply you with the National Indian Education Studies 
Parts 1 and 2 that our department just funded over the last 2 
years which provides a tremendous amount of data.
    And similar to what my other panelists have told you, we do 
know that Indian students are not performing at the same rates 
as their counterparts. And certainly, it is worse if you attend 
a BIE school.
    The National Assessment of Educational Progress, the NAEP, 
has not historically sampled Indian education, Indian students 
at the same level.
    And so we have actually supported--our agency has supported 
an oversampling of Native American students. So in the last 2 
years, in 2005 and 2007, we have more data on the performance 
of Native American students than we have ever had before.
    And as I mentioned, it is still not as good as their 
counterparts, but we have seen some progress in the last 2 
years.
    Ms. Woolsey. Okay. Thank you, Mr. Chairman.
    Chairman Kildee. Thank you very much, Ms. Woolsey.
    The gentleman from Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. I think some of the 
questions I had were answered, at least, for South Dakota.
    Ms. Ashby, did you ascertain whether teacher salaries at 
the Indian schools were better or worse than the surrounding 
schools in the area?
    Ms. Ashby. We did not.
    Mr. Scott. Did anybody--Mr. Hamilton, you said the funding 
was higher, actually, in South Dakota.
    Mr. Hamilton. Bureau-operated schools use the--we believe 
it is called the Department of Defense pay scale. I am not 
really sure where that pay scale comes from.
    Their teachers are paid significantly higher. Bureau-funded 
schools, the tribal grant schools run about $8,000 to $10,000, 
give or take, a little bit less than the public schools.
    So there are discrepancies in how resources are given out 
for teacher pay.
    Mr. Scott. Is that the same in other states, Dr. Gilbert?
    Dr. Gilbert. In hearing our testimonies, on the Navajo 
Reservation, what it concerns is that--the issue of pay for 
teachers on reservation schools is much lower than the public 
schools. The other issue having to do not only with pay but 
also with maintaining our teachers on the reservation schools, 
I have heard stories where teachers come to our reservations, 
teach for 1 year and then leave half a year and then move 1 
month and 1 day and leave before they even go into a classroom.
    So this is a major concern for us because we have a major--
--
    Mr. Scott. Why is that?
    Dr. Gilbert. I am sorry?
    Mr. Scott. Why?
    Dr. Gilbert. Well, because high turnover rates that we have 
not only in teachers but also administration as well, when you 
come to our reservations, for example, the closest Sears 
Roebuck store can be about 200 miles away. So we don't have the 
facilities and so forth that Flagstaff or Phoenix or other big 
cities may have.
    Mr. Scott. Who pays for school construction and equipment 
like computers and science labs and whatnot? Is that the 
federal, state, and local? Who pays? Who foots the bill for 
that?
    Mr. Holder. The Office of Facilities, Construction, and 
Management in the Bureau of Indian Affairs is responsible for 
school construction and school renovation projects.
    Mr. Scott. It is on the federal level?
    Mr. Holder. Right.
    Mr. Scott. Okay.
    Mr. Hamilton talked about drop-outs in South Dakota. What 
is the graduation rate in other states in the Bureau schools 
and in the public schools?
    One of the challenges we have in No Child Left Behind is 
that we are sitting up calculating those who take the test and 
are actually there and ignoring the fact that half of them 
didn't show up because they have dropped out. And the school 
cannot possibly be given--should not be given credit for 
adequate yearly progress if half the students have dropped out.
    In South Dakota, apparently, a lot of people--a lot of them 
are dropping out, not graduating. We need to get a hold of what 
the drop-out rate is in the--if we don't know, a strong attempt 
will be made to get a better drop-out provision in No Child 
Left Behind when it is reauthorized.
    Dr. Gilbert?
    Dr. Gilbert. Yes. For public and BIE schools, 49--the drop-
out rate is 49 percent males and 51 percent females. That is 
the current percentages that we have in regard to public and 
BIE school drop-outs.
    Mr. Scott. Well, obviously, some work needs to be done on 
that. I think it was Mr. Holder indicated that some of the 
students feel isolated in the public schools.
    What is done for after school programs to make sure people 
are--their children are engaged in their education?
    Mr. Holder. Could you repeat the question, please?
    Mr. Scott. Did you indicate that the students seem, in the 
public school, seem isolated? Not much engaged in the education 
process?
    Mr. Holder. Well, I believe that public schools--not all 
public schools. I believe that New Mexico has a very strong 
Native American support program in their schools where they 
have a high density of Indian students.
    However, I believe that some Indian students do choose to 
go to Bureau-operated schools or tribally-operated Bureau-
funded schools to be in more close contact with their language 
and culture for the program that they provide there at the 
schools.
    Mr. Scott. Is anything being done in after school programs, 
mentoring, or other college-access programs--you mentioned GEAR 
UP, Upward Bound, to keep people in school and headed toward 
college rather than dropping out?
    Mr. Holder. We have two programs that are available in the 
Bureau. One is Title IV, Part B, which is 21st Century 
Community Learning Centers. That provides an appropriation for 
before, after, and extended-year programs to provide academic 
and behavioral support to students.
    In addition to that, we procured departmental funding 
through the Department of Interior to provide tutoring and 
mentoring grants to schools to support students, also.
    Mr. Scott. And how many people have taken advantage of it?
    Ms. Dudro, do you want to comment?
    Ms. Dudro. Yes. I was just going to mention that the 
Department of Education, through Title VII, has also 
approximately $9.1 million for special programs for Indian 
education, including after-school programming and secondary--
post-secondary educational training.
    Mr. Scott. And how many students--what portion of the 
students have access to those programs? Are you funding enough 
so that most of them can participate?
    Ms. Dudro. I couldn't give you the percentage off the top 
of my head.
    Mr. Scott. All right.
    Dr. Gilbert. If I may----
    Mr. Scott. Mr. Hamilton and then Dr. Gilbert.
    Dr. Gilbert. Just very, very quickly--another after-school 
program that can be very successful, but unfortunately, it 
always seems to be low on the totem pole in regard to funding 
is the Johnson-O'Malley programs.
    JOM programs have become very successful in providing those 
opportunities for our students, in particular, after-school 
programs. And what we have learned and what we have found in 
these programs is their students become very successful not 
only academically but also socially as well.
    Mr. Scott. Mr. Hamilton?
    Mr. Hamilton. We started to see attempts at creating 
relationships between boys clubs and girls clubs, which are 
kind of non-education programs formally and the Bureau systems. 
We need more funding for that.
    One of the issues, at least where I live, is a 
transportation issue. You know, we all know about the price of 
gas. That is exacerbated when your child has a 50-to 60-mile, 
100-mile--in this case, the Navajo, a 200-mile drive--from 
where the boys club is or the girls club to home. And a lot of 
those programs don't have transportation programs associated 
with them.
    And so our schools are facing issues saying we would like 
you to stay after school. We don't have enough resources to pay 
for you to drive back and forth. And, in my community, with an 
average household income of about $6,200 a year, maybe $6,300 a 
year, it gets pretty expensive pretty quick to drive your pick-
up truck 50 miles to pick up your child and 50 miles back home 
at 14 miles per gallon.
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Kildee. Thank you very much, Mr. Scott.
    The gentleman from New Jersey, Mr. Payne?
    Mr. Payne. Thank you very much. Mr. Chairman, thank you for 
calling for this important hearing and your interest for many, 
many years in this area.
    I wonder, Ms. Ashby, in your testimony, you described some 
actions that BIE has taken in response to your recommendations. 
Can you discuss those?
    And also what more needs to be done to ensure the tribal 
groups are aware of their options regarding accountability 
systems and those that are interested in pursuing them are able 
to pursue them?
    Ms. Ashby. BIE has begun to address our recommendations. As 
I said earlier, since last fall, in particular, there have been 
meetings with the three tribal groups that are interested in 
seeking alternatives to the AYP definition. Those meetings have 
been, apparently, somewhat fruitful.
    There is a consultant that is working--and this may be the 
consultant financed by the Department of Education, I am not 
sure. Maybe it is working with both BIE and Education.
    But there is now a consultant working with the tribal 
groups. There are plans to provide information on how to seek 
alternatives. There is a conference coming up this fall.
    So there are things in the works. But certainly, as we 
often say at GAO, more needs to be done. For example, MOUs 
still have not been negotiated with the other 12 states. 
California still is not allowing access. And there is no 
alternative being developed for the two tribes that are in, the 
two tribal groups in California--the two schools, rather, in 
California that need access to an assessment or need an 
assessment that is valid and reliable so that it can be 
accountable under No Child Left Behind.
    So that needs to be done quickly because, as I said 
earlier, the schools are at risk of having at least the 
conditions upon which they have access changed.
    So there have been actions taken, but we hope to see 
continued action and, ultimately, the MOUs negotiated and 
structures set up to provide timely responses to any tribal 
group that is interested in seeking an alternative.
    Mr. Payne. What agency in the Department of Education is 
responsible for, perhaps, seeing that your recommendations are 
being moved forward more rapidly?
    Ms. Ashby. I believe this comes under the Title I office. 
At least a good deal of the money is Title I money for low-
income schools. And I am not sure if there are other agencies 
as well.
    Mr. Payne. Well, maybe since we have someone from the 
Department of Education, maybe we will make you the bad fellow.
    What are you all--what is happening in your enforcement or 
your encouragement of this moving forward?
    Ms. Dudro. Sure. As stated, GAO is correct. The Office of 
Elementary and Secondary Education oversees Title I as the 
primary office that is responsible for working with the BIE to 
ensure that tribes have the opportunity to apply for an 
alternative AYP definition.
    The Department sponsors BIE at a little over $210 million 
annually. Primarily $129 million, approximately, comes out of 
the Office of Elementary and Secondary Education, and the 
remaining funds come from our Office of Special Education.
    As I mentioned in my testimony, written and oral, we have a 
memorandum of agreement with the Bureau of Indian Education and 
set up a process for helping BIE process through requests that 
they receive from the tribe. And as stated in the GAO report, 
we try to answer those requests in the most timely manner.
    Mr. Payne. Thank you.
    Mr. Hamilton, you know, you testified that many federal 
grants for assisting Indian students and teachers go to 
organizations that have little specific experience with Indian 
issues. Can you expand on that?
    And also, you mentioned can you discuss the difficulties 
created when the AYP determinations are not made until well 
after the start of the school year and where that situation has 
improved recently?
    Mr. Hamilton. Related to contracts grants going to 
organizations that don't have a history--or maybe they don't 
have a history with us. I can think of two specific examples.
    When----
    Mr. Payne. Does Halliburton do this kind of stuff?
    Mr. Hamilton. Close. [Laughter.]
    We won't go into that. We have been involved with some of 
those kind of things, too, unfortunately.
    But we did have--at one point, when I was working with the 
restructuring at Wounded Knee District School, we were told by 
the Bureau that we would have a consultant come in, and they 
took a $10 million chunk of money and paid for the University 
of Utah to provide support in South Dakota.
    A Nan Gutshaw who came up one day--a very nice lady--and 
was gone. We didn't see her again. We did a lot of work, but we 
didn't see her. And as a matter of fact, that was the only help 
that that school got directly from the Bureau in their 
restructuring process. Our organization has helped them the 
rest of the time.
    And recently, the Department of Education has a grant 
process to train Native American principals. And my wife, who 
keeps coming up in my life, is actually in part of that 
master's program.
    And even though the tribal colleges put in for this 
program, one of the grants ended up at Montana State 
University, which my wife is part of that cohort group. And she 
is becoming a principal. And she has yet to have a native 
instructor even though we have a large number of Native 
Americans with PhDs who could be teaching. She has not been 
instructed on what it is to finance or run a Bureau-operated or 
a Bureau-funded school.
    It is been very much a public school preparation. And we 
have had a lot of talks about that where there is--there needs 
to be some oversight of saying how--when we take large amounts 
of resource and we are going to help out the tribes, making 
sure that the tribes have some sort of voice in what goes on.
    And those are just two of many examples. I could give you a 
list.
    The other part of your question. I have got to help refresh 
my mind here. My ADD-ADHD kicked in. So what was the other half 
of your question there?
    Mr. Payne. Well, I had asked one about the consultants and, 
secondly, about when the AYP starts late in the system, the 
disability that it has to the kid.
    Mr. Hamilton. In law, the Bureau is not obligated to 
provide school choice for parents. In reality, where I live 
there are five different elementary schools vying for children 
and parents move their children from place to place depending 
on their perception of the health of the school.
    We were talking earlier about why kids go to specific 
schools. And parents do pay attention.
    NCLB is designed to inform parents, and we haven't informed 
parents. This year, Pine Ridge won't find out until probably 
mid-October what their AYP determination is.
    Last year, we didn't find out last fall's data until April. 
I am not even sure when the letters went out the year before, 
but I know that we have a consistent problem with informing 
parents.
    And we are expected, in the restructuring and the 
corrective action planning process, to include parents in how 
we improve our schools. And I know as the leader in the 
restructuring process for Wounded Knee District School, we have 
parent meetings on a quarterly basis. So every 3 months, we sit 
down with parents, not only our parent committee, but we have 
general meetings across the whole community asking people to 
come in and talk about the school.
    We have to inform them. And if we don't get data back 
quickly or in a timely fashion, then we have problems.
    Mr. Payne. Well, let me thank you all for your testimony. 
And let me just say that it is deplorable that, as you 
indicated, 95 percent of Native American boys will not finish 
high school. I mean, that is totally unacceptable. It is 
genocide in--educational genocide. And if you are not prepared, 
you are dead.
    And so I would hope, Mr. Chairman, we could follow up and 
see if there can be some change, a quantum leap, in what is 
going on.
    Once again, let me thank you for calling this very 
important hearing.
    Chairman Kildee. Thank you very much, Mr. Payne. And thank 
you for your continued interest and involvement in Indian 
education.
    I am going to thank the witnesses. Hopefully this can be 
one of those turning points. We brought some very, very 
important people together here this morning at the same table. 
And I hope this can be a turning point.
    I have been here 32 years, and I think things are somewhat 
better. But I am frustrated. I am impatient, you know, with our 
efforts to try to improve Indian education. We need dollars. We 
need sense and cooperation working with you. You have levels of 
expertise that are extremely important.
    I think all of us up here and you out there have a moral 
obligation, really, because you have all been given a 
responsibility in one way or another to help develop Indian 
education in this country. And we should take that as a moral 
obligation.
    So thank you for your testimony this morning. It has been a 
very informative meeting. I hope that everyone leaves here 
today with renewed commitment to working together on this--
state, federal, and tribal level--to work as equals. And it is 
so important as you walk into that room to recognize that you 
are walking and talking to equals.
    They are real sovereignties. It is not the Knights of 
Columbus, as much as I like the Knights of Columbus. It is not 
the VFW. It is a sovereign group.
    So we want to make sure that we make use of the great 
benefits of Indian culture and Indian language to overcome the 
great challenges that we are facing in Indian education. And 
you are the people, and we up here, let us work together. Let 
us really take that as an obligation.
    And we are told that we are to be seekers after justice. 
And I am convinced that all of you are that. That you really 
want justice. The question is how we best achieve that justice.
    Several years ago, I introduced three bills to recognize--
to reaffirm the recognition of three tribes in Michigan: Little 
Traverse, Little River, and the Pokagon Band of Potawatomi. 
Thank God they had saved great records. They had great 
genealogical studies. But we did it through the congressional 
process and passed three laws.
    And I asked President Clinton at that time if he would have 
a bill-signing ceremony in the Oval Office. And he agreed to do 
so. So the three chiefs from Michigan came down with many of 
their citizens. And, by the way, the always use the word 
``citizen'' rather than ``member'' because I think citizen 
really illustrates sovereignty.
    You know, the Knights of Columbus has members, but Indian 
tribes have citizens. Right?
    But we filled the Oval Office. And the president used 
probably 30 different pens, you know, W and pass the pen 
around, I, L--for three different bills.
    And when he finished--the president is very gregarious. He 
got up and walked around shaking hands and hugging everybody. 
And the three chief executives, the three chiefs of these 
tribes were still standing there with me behind the desk.
    So I turned to them. I said, ``Why don't you sit down in 
the president's chair?'' One of the U.S. Senators said, ``Dale, 
I don't think we can do that.'' I said no. We can't because we 
are not chief executives of sovereign nation. These three are.
    So they took turns sitting down in the president's chair 
which was a great thing, I thought. And they had their pictures 
there sitting in the Oval Office in the president's chair.
    I did tell one of them on the way out that the only thing I 
ever had on that chair was my eye. But they actually occupied 
it. And it--I think illustrations of sovereignty are important, 
but the real recognition, the day-by-day things that touch 
people's life of sovereignty is more important than the 
symbolism.
    And this area of education--I started out my life being a 
teacher, and I taught school for 10 years. From there, I moved 
into this arena. But education is so important.
    So as you meet with one another, as you meet with--in your 
respective capacities, recognize that that sovereignty is a 
real thing and that you are going in there dealing with people, 
not one with a higher degree of authority than the other, but 
people who have the obligation to protect the sovereignty of 
their respective governments.
    Thank you very much.
    Mr. Payne. Mr. Chairman, yield for a second?
    Chairman Kildee. Mr. Payne, yes.
    Mr. Payne. Let me just mention that about 18 years ago, I 
guess it was, that Congressman Major Owens, who chaired the, 
then, Select Committee on Education, had hearings. We went to 
Santa Fe. We went to several of the Native American nations and 
actually met with tribal leaders even in traditional programs. 
And it was very, very exciting and very interesting. And, 
perhaps, sometime in the future, next year or the following 
year, we can revisit some of the areas where we can really get 
first-hand knowledge of what is happening there.
    And so I remember it as if it were just yesterday, but like 
I said, it was almost 20 years ago. So I just wanted to mention 
that, Mr. Chairman.
    Chairman Kildee. If I can take just another 2 minutes. 
About 31 years ago, I started to visit Indian schools out West. 
Carl Perkins was chairman. And I kept adding amendments to 
education bills saying that--SEA, State Education Agencies, 
LEAs, Local Education Agencies, were eligible recipients.
    And I always added an amendment saying ``and Indian 
tribes'' for all the education bills. And he would accept all 
these amendments.
    So finally, he said that we don't have an Indian education 
subcommittee, but could you head up a task force. Well, I used 
to travel to Indian schools, and I will tell you, that was 31 
years ago. I visited some Indian schools that a federal judge 
would have not allowed prisoners to be in.
    I know because we had a jail in Genesee County, my district 
back home--that the federal judge ordered torn down. We blew it 
up. We blew it up because it was not fit for human habitation. 
Actually, some in the public school system would have been 
happy to get that building.
    But it was better than some--much better than some of the 
Indian schools I was visiting. And I determined then that we 
really, really had to move fast. And that was 31 years ago, and 
that has not been fast. We have so much to do. We have such an 
obligation.
    And when we can spend trillions of dollars and billions of 
dollars on other things, we certainly can spend some money to 
invest in the education of those people from whom we took much 
land, took many other things.
    As a matter of fact, let me just finish by saying this. I 
introduced, I mentioned, the Michigan Indian Tuition Waiver 
Act. When the Michigan Indians go to college, the state pays 
the tuition. That is still a law in Michigan.
    But I introduced that because I went down and read the 
Treaty of Detroit. And the treaty promised education. And while 
it was a treaty with the federal government, the beneficiary 
really turned out to be the state of Michigan getting all that 
land. And I felt that they should carry out their obligation.
    So 31 years is a long time. I hope I have made some 
progress. But I still feel guilty we have not made enough 
progress.
    But, again, we have to work hard.
    Do you have anything--any closing remarks before I----
    Again, I want to thank Governor Castle for his continued 
presence. He is always present at these hearings. And that is 
extremely important. I appreciate that.
    As previously ordered, members will have 7 calendar days to 
submit additional materials for the hearing record. Any member 
who wishes to submit follow-up questions in writing to the 
witnesses should coordinate with majority staff within the 
requisite time.
    Without objection, this hearing is adjourned. Thank you.
    [Whereupon, at 11:54 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
